<html>
<title> - FEDERAL LAW ENFORCEMENT TRAINING CENTERS: PREPARING AMERICA'S LAW ENFORCEMENT TO PROTECT THE HOMELAND</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


   FEDERAL LAW ENFORCEMENT TRAINING CENTERS: PREPARING AMERICA'S LAW 
                  ENFORCEMENT TO PROTECT THE HOMELAND

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         OVERSIGHT, MANAGEMENT,
                           AND ACCOUNTABILITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 16, 2019

                               __________

                           Serial No. 116-20

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                      

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
37-866 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                
                                
                             ------                                

       SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT, AND ACCOUNTABILITY

              Xochitl Torres Small, New Mexico, Chairwoman
Dina Titus, Nevada                   Dan Crenshaw, Texas, Ranking 
Bonnie Watson Coleman, New Jersey        Member
Nanette Diaz Barragan, California    Clay Higgins, Louisiana
Bennie G. Thompson, Mississippi (ex  Van Taylor, Texas
    officio)                         Mike Rogers, Alabama (ex officio)
                Lisa Canini, Subcommittee Staff Director
            Katy Flynn, Minority Subcommittee Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Xochitl Torres Small, a Representative in Congress 
  From the State of New Mexico, and Chairwoman, Subcommittee on 
  Oversight, Management, and Accountability:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Dan Crenshaw, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Oversight, 
  Management, and Accountability:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Thomas J. Walters, Director, Federal Law Enforcement Training 
  Centers, U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. John V. Kelly, Acting Inspector General, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Captain Greg Davis, DPS Academy Training Coordinator, Texas 
  Department of Public Safety:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

                                Appendix

Questions From Chairwoman Xochitl Torres Small for Thomas J. 
  Walters........................................................    37
Questions From Chairman Bennie G. Thompson for Thomas J. Walters.    38
Questions From Chairwoman Torres Small for John V. Kelly.........    39

 
   FEDERAL LAW ENFORCEMENT TRAINING CENTERS: PREPARING AMERICA'S LAW 
                  ENFORCEMENT TO PROTECT THE HOMELAND

                              ----------                              


                         Thursday, May 16, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Oversight, Management, 
                                        and Accountability,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 310, Cannon House Office Building, Hon. Xochitl Torres 
Small [Chairwoman of the subcommittee] presiding.
    Present: Representatives Torres Small, Barragan, Crenshaw, 
and Higgins.
    Ms. Torres Small. The Subcommittee on Oversight, 
Management, and Accountability will come to order.
    The subcommittee is meeting today to receive testimony on 
``Federal Law Enforcement Training Centers, Preparing America's 
Law Enforcement to Protect the Homeland.''
    Good morning. I want to thank our witnesses for being here 
today. The Nation is currently honoring its law enforcement 
officers as part of the National Police Week. I would like to 
take a moment to thank those individuals who risk their lives 
to protect their country and local communities. I also honor 
those in law enforcement who have lost their lives in the line 
of duty.
    In conjunction with Police Week, today, we have the 
opportunity to hear about the Federal Law Enforcement Training 
Centers, or FLETC, the component responsible for training more 
than 70,000 law enforcement officers and agents annually.
    I am proud to say that one of FLETC's facilities is located 
in my home district, in Artesia, New Mexico. Artesia is home to 
the Basic Training Academy for the United States Border Patrol. 
It is also the training site for the Federal Air Marshal 
Service, Federal Flight Deck Officers, and the Bureau of Indian 
Affairs Indian Police Academy. All in all, about 4,000 law 
enforcement officers are trained in Artesia every single year.
    I recently had the opportunity to visit the Artesia 
facility and witnessed first-hand the full extent of work that 
goes into keeping that training facility running. Whether the 
training occurs in Artesia or at one of FLETC's many other 
sites across the country, it is critical that FLETC provide 
this training efficiently, safely, and, most importantly, in a 
manner that effectively prepares trainees for the real-life 
challenges they will encounter in the field.
    The Department of Homeland Security's Office of Inspector 
General, OIG, recently described in a November 2018 report some 
of the challenges FLETC faces related to a lack of resources 
and its dependence on partner organizations.
    For example, while FLETC's largest facility in Glynco, 
Georgia, has an annual capacity to house more than 20,000 
students, it still houses thousands at off-site hotels. Some of 
those trainees have been housed at hotels up to 74 miles away 
from the center.
    While this results in costs that are 3 to 4 times more than 
on-site housing, it also has nonmonetary impacts. For example, 
one FLETC partner told the Government Accountability Office 
that its new hires who are housed off-site did not have the 
same opportunity to acclimate to agency culture.
    Additionally, FLETC depends heavily on the partner 
organizations that use its training facilities. For example, 
its partners are required to provide or pay for some of the 
instructors that run FLETC's training programs. Some of those 
partners rely on short-term temporary duty rotations that come 
at a far greater expense than multi-year rotations that also 
provide more consistent instruction for trainees.
    Despite these challenges, I am encouraged to learn that 
FLETC has recently developed a strategic plan laying out a 
vision for the component's future. I look forward to hearing 
about how FLETC intends to implement its strategic plan to work 
more closely with its partners to ensure that its training 
courses meet the needs of the Department of Homeland Security 
and all other partner organizations.
    I also look forward to hearing about possible solutions to 
some of the challenges FLETC faces and the ways in which this 
committee and Congress as a whole might assist in doing that.
    Training at both the beginning of one's career and as one 
continues to learn new skills and hone old ones is a critical 
piece in the career of law enforcement, and I am confident that 
we can work together to ensure FLETC is providing the best 
possible training for the law enforcement community.
    Again, thank you to all of the witnesses for being here, 
and I look forward to your testimony.
    The Chair now recognizes the Ranking Member of the 
subcommittee, the gentleman from Texas, Mr. Crenshaw, for an 
opening statement.
    [The statement of Chairwoman Torres Small follows:]
              Statement of Chairwoman Xochitl Torres Small
                              May 16, 2019
    The Nation is currently honoring its law enforcement officers as 
part of National Police Week. I would like to take a moment to thank 
those individuals who risk their lives to protect their country and 
local communities. I also honor those in law enforcement who have lost 
their lives in the line of duty. In conjunction with Police Week, today 
we have the opportunity to hear about the Federal Law Enforcement 
Training Centers, or FLETC, the component responsible for training more 
than 70,000 law enforcement officers and agents annually.
    I am proud to say that one of FLETC's facilities is located in my 
home district of Artesia, New Mexico. Artesia is home to the basic 
training academy for the United States Border Patrol. It is also the 
training site for the Federal Air Marshals Service, Federal Flight Deck 
Officers, and the Bureau of Indian Affairs' Indian Police Academy. All 
in all, about 4,000 law enforcement officers are trained at Artesia 
every year. I recently had the opportunity to visit the Artesia 
facility and witnessed first-hand the full extent of the work that goes 
into keeping that training facility running.
    Whether the training occurs at Artesia or one of FLETC's many other 
sites across the country, it is critical that FLETC provide this 
training efficiently, safely, and, most importantly, in a manner that 
effectively prepares trainees for the real-life challenges they will 
encounter in the field.
    The Department of Homeland Security's Office of Inspector General 
(OIG) recently described, in a November 2018 report, some of the 
challenges FLETC faces related to a lack of resources and its 
dependence on partner organizations. For example, while FLETC's largest 
facility in Glynco, Georgia has an annual capacity to house more than 
20,000 students, it still houses thousands at off-site hotels. Some of 
those trainees have been housed at hotels up to 74 miles away from the 
center. While this results in costs that are 3 to 4 times more than on-
site housing, it also has non-monetary impacts. For example, one FLETC 
partner told the Government Accountability Office that its new hires 
who were housed off-site did not have the same opportunity to acclimate 
to agency culture.
    Additionally, FLETC depends heavily on the partner organizations 
that use its training facilities. For example, its partners are 
required to provide or pay for some of the instructors that run FLETC's 
training programs. Some of those partners rely on short-term temporary 
duty rotations that come at a far greater expense than multi-year 
rotations that also provide more consistent instruction for trainees. 
Despite these challenges, I am encouraged to learn that FLETC has 
recently developed a Strategic Plan laying out a vision for the 
component's future.
    I look forward to hearing about how FLETC intends to implement its 
Strategic Plan to work more closely with its partners to ensure that 
its training courses meet the needs of the Department of Homeland 
Security and all other partner organizations. I also look forward to 
hearing about possible solutions to some of the challenges FLETC faces 
and the ways in which this committee and Congress as a whole might 
assist.
    Training, both at the beginning of one's career and as one 
continues to learn new skills and hone old ones, is a critical piece in 
the career of a law enforcement. I am confident that we can work 
together to ensure that FLETC is providing the best possible training 
for the law enforcement community.

    Mr. Crenshaw. Thank you, Chairwoman.
    Thank you to our witnesses for being here.
    Thank you for holding this hearing.
    I am pleased we are doing this to examine how the Federal 
Law Enforcement Training Center, FLETC, provides training and 
resources to Federal, State, and local law enforcement. It is a 
very timely hearing, as it is Police Week. This week we will 
honor all of the men and women in law enforcement and pay our 
respects to the police officers who have made the ultimate 
sacrifice in the line of duty.
    I am especially grateful because I understand first-hand 
what it is like to open a door and not know what is on the 
other side. All of us who went overseas to serve were able to 
do so because our law enforcement officers stayed here and 
served us day in and day out, keeping our families and our 
communities and our country safe.
    According to the FBI, 106 law enforcement officers were 
killed in the line of duty in 2018. Line-of-duty deaths were 
frequently during investigations of a crime or while making an 
arrest. As we seek to reduce the number of deaths in the line 
of duty, we must recognize the important role training and 
research can play. Researchers look for trends relating to 
officers' injuries and deaths while on duty. Data analysis of 
these trends can result in changes to agency policies, 
practices, and training objectives for law enforcement.
    FLETC is one agency that is always looking for ways to 
improve officer training. It also conducts research to 
establish best practices.
    Since its founding in Georgia in 1975, FLETC has adapted to 
respond to the ever-changing threat environment and provide the 
best training possible.
    In the wake of 9/11, FLETC was moved to the Department of 
Homeland Security and has continued to expand its training 
opportunities to serve more law enforcement agencies. In 2018, 
FLETC trained more than 73,000 officers through over 800 
training programs.
    FLETC provides basic training for agents and officers 
across the Federal Government and provides training on specific 
issues, such as firearms, driving, investigations, and legal 
issues.
    FLETC also offers specialized training courses on things 
such as active-shooter threat training, commercial vehicle 
counterterrorism training, internet investigations training, 
and tactical medical training for first responders. Recently, 
FLETC has developed a pilot program for training in human 
trafficking. I want to briefly discuss the importance of the 
last two.
    After the early experiences in Iraq and Afghanistan, the 
U.S. military began prioritizing tactical medicine. Knowing how 
to pack a gunshot wound, how and where to apply a tourniquet, 
and how to open an airway have been vital to saving countless 
lives on the battlefield. These skills are indispensable for 
saving lives at home as well.
    FLETC's partnership with the Blue Campaign to combat human 
trafficking is something I care deeply about. We should do 
everything we can to eradicate this abhorrent form of modern 
slavery.
    My district in the Houston area is all too familiar with 
this horrific practice. There is no place in this world and we 
must make sure we are doing everything we can to make human 
trafficking a thing of the past.
    FLETC also offers train-the-trainer programs that act as a 
force multiplier to increase the reach of FLETC and train as 
many officers as possible.
    FLETC's State, Local, and Tribal Division provide 
opportunities for low-cost and no-cost training at its campuses 
around the country. These programs support the development of 
specialized law enforcement knowledge and skills. Additionally, 
FLETC sponsors training at other locations around the Nation, 
most of which are provided at no cost for those at the State, 
local, and Tribal law enforcement officers.
    FLETC clearly has its work cut out for it by trying to 
provide training for the Federal Government and being a 
resource for State, local, and Tribal law enforcement as well. 
The Executive Order issued by President Trump to increase CBP 
and ICE officers to address the crisis at the border will 
require a large number of additional officers to be trained by 
FLETC. I am hopeful FLETC can rise to the challenge, and I am 
hopeful Congress will provide it the resources it needs to do 
so.
    I look forward to hearing from our witnesses today on the 
training opportunities FLETC provides law enforcement and ways 
FLETC can improve its training opportunities and the ways that 
Congress can assist.
    I yield back.
    Thank you, Chairwoman.
    [The statement of Ranking Member Crenshaw follows:]
                Statement of Ranking Member Dan Crenshaw
                              May 16, 2019
    Thank you, Chairwoman Torres Small. And thank you to our witnesses 
for being here today.
    I am pleased we are holding this hearing today to examine how the 
Federal Law Enforcement Training Center, FLETC, provides training and 
resources for Federal, State, and local law enforcement. This is a very 
timely hearing as it is National Police Week. This week, we honor all 
the men and women in law enforcement and pay our respects to police 
officers who made the ultimate sacrifice in the line of duty.
    I am especially grateful, because I understand what it's like to 
open a door and not know what's on the other side. All of us who went 
overseas to serve were able to do so because our law enforcement 
officers stayed here and served us day-in and day-out keeping our 
families, our communities, and our country safe.
    According to the FBI, 106 law enforcement officers were killed in 
the line of duty in 2018. Line-of-duty deaths were frequently during 
the investigation of a crime or while making an arrest.
    As we seek to reduce the number of deaths in the line of duty, we 
must recognize the important role training and research can play. 
Researchers look for trends relating to officer injuries and deaths 
while on duty. Data analysis of these trends can result in changes to 
agency policies, practices, and training objectives for law 
enforcement.
    The Federal Law Enforcement Training Center (FLETC) is one agency 
that is always looking for ways to improve officer training. It also 
conducts research to establish best practices.
    Since its founding at Glynco, Georgia in 1975 FLETC has adapted to 
respond to the ever-changing threat environment and provide the best 
training possible.
    In the wake of 9/11, FLETC was moved to the Department of Homeland 
Security and has continued to expand its training opportunities to 
serve more law enforcement agencies.
    In 2018, FLETC trained 73,816 officers through over 800 training 
programs.
    FLETC provides basic training for agents and officers across the 
Federal Government and provides training on specific issues such as on 
firearms, driving, investigations, and legal issues.
    FLETC also offers specialized training courses on things such as 
Active Shooter Threat Training; Commercial Vehicle Counterterrorism 
Training; Internet Investigations Training; and Tactical Medical 
Training for First Responders. Recently, FLETC has developed a pilot 
program for training in human trafficking.
    I want to briefly discuss the importance of the last two.
    After the early experiences in Iraq and Afghanistan, the U.S. 
military began prioritizing tactical medicine. Knowing how to pack a 
gunshot wound, how and where to apply a tourniquet, and how to open an 
airway have been vital to saving countless lives on the battlefield. 
These skills are indispensable for saving lives at home as well.
    FLETC's partnership with the Blue Campaign to combat human 
trafficking is something I care deeply about. We should do everything 
we can to eradicate this abhorrent form of modern slavery. My district, 
the Houston area, is all too familiar with this horrific practice. It 
has no place in this world and we must make sure we are doing 
everything we can to make human trafficking a thing of the past.
    FLETC also offers train-the-trainer programs that act as a force 
multiplier to increase the reach of FLETC and train as many officers as 
possible.
    FLETC's State, Local, and Tribal Division provides opportunities 
for low-cost and no-cost training at its campuses around the country. 
These programs support the development of specialized law enforcement 
knowledge and skills. Additionally, FLETC sponsors training at other 
locations around the Nation, most of which are provided at no cost for 
sworn State, local, and Tribal law enforcement officers.
    FLETC clearly has its work cut out for it by trying to provide 
training for the Federal Government and being a resource for State, 
local, and Tribal law enforcement as well. The Executive Order issued 
by President Trump to increase CBP and ICE officers to address the 
crisis at the border will require a large number of additional officers 
to be trained by FLETC. I am hopeful FLETC can rise to the challenge 
and I am hopeful Congress will provide it the resources it needs to do 
so.
    I look forward to hearing from our witnesses today on the training 
opportunities FLETC provides law enforcement, ways FLETC can improve 
its training opportunities, and the ways we in Congress can assist.
    I yield back the balance of my time.

    Ms. Torres Small. Other Members of the committee are 
reminded that, under the committee rules, opening statements 
may be submitted for the record.
    [The statement of Chairman Thompson follows:)
                Statement of Chairman Bennie G. Thompson
                              May 16, 2019
    As it is National Police Week, I would like to take a moment to 
thank those law enforcement officers who serve this country and State 
and local communities and also honor those in law enforcement who have 
made the ultimate sacrifice.
    The Federal Law Enforcement Training Centers, or FLETC, are a 
critical component of the Department of Homeland Security (DHS) and 
serve an important function for our Nation's law enforcement community 
at large. FLETC prepares the Federal law enforcement community to 
safeguard the American people, with more than 70,000 students receiving 
training at FLETC annually.
    FLETC has grown over the years to include a number of facilities. 
If you are a new law enforcement officer joining the United States 
Border Patrol or the Federal Air Marshal Service, you will attend basic 
training at FLETC's facility in Chairwoman Torres Small's district in 
Artesia, New Mexico. A new recruit joining ICE Enforcement and Removal 
Operations or Homeland Security Investigations will attend basic 
training at FLETC's headquarters in Glynco, Georgia. And if you are a 
law enforcement officer in the National Capital Region, you will likely 
attend refresher and advanced training at FLETC's facility nearby in 
Maryland. Overall, FLETC oversees training for approximately 100 law 
enforcement organizations.
    Needless to say, it is critical that FLETC conduct training in a 
manner that will prepare law enforcement trainees for the challenges 
they will face in the field. As the country's threat landscape evolves, 
FLETC must adapt so that its trainings meet the specific needs of its 
partners. On this front, I am encouraged that FLETC recently produced a 
Strategic Plan that highlights the need for coordination with its 
partners in designing, developing, and evaluating its training 
programs.
    Despite the best of intentions, FLETC faces coordination challenges 
with its partners and a lack of resources. Some of these challenges 
were identified in a November 2018 DHS Office of Inspector General 
(OIG) report. For example, scheduling for approximately 100 partner 
organizations at 700 sites is a heavy lift and depends greatly on 
FLETC's partners' ability to accurately predict their training needs 
for the upcoming year. Given the limited resources and on-going demand 
for training, partners compete for use of the same training facilities. 
According to the OIG, FLETC has identified at least 8 facilities that 
exceed their capacity. In those cases, partners occasionally have to 
use back-up sites that lack the same capabilities or training features. 
For example, one back-up site does not have a stairwell, which 
precludes training on navigating such a setting. The OIG also noted 
that back-up sites may be less safe. In one such case, a warehouse at 
the Artesia facility was damaged by a vehicle in 2009 and was not 
repaired until after the OIG identified safety risks in 2017.
    This raises concerns about whether FLETC has practices in place and 
resources necessary to ensure that its infrastructure is properly 
maintained. Indeed, maintenance and repair of FLETC's infrastructure is 
critical to its success. But during hiring surges, it becomes more 
challenging for FLETC to complete this work.
    If Customs and Border Protection succeeds in its proposed hiring 
surge, the Department must have a plan to ensure FLETC does not get 
overwhelmed by additional trainees, exacerbating existing scheduling 
and infrastructure challenges. I look forward to hearing more from the 
acting inspector general on the challenges FLETC faces and 
opportunities for improvement. I also look forward to hearing from 
FLETC on the steps it is taking to deliver its training in an efficient 
and safe manner and to ensure that law enforcement officers are 
receiving the best possible training to address the challenges they 
will face in the field.

    Ms. Torres Small. I welcome our panel of witnesses and 
thank you all for joining us today.
    Our first witness is Mr. Thomas J. Walters, who serves as 
the director of the Federal Law Enforcement Training Centers. 
Director Walters oversees all operations related to the 
development and delivery of law enforcement training for more 
than 95 Federal partner organizations. Before joining FLETC, he 
had a distinguished 30-year career with U.S. Customs and Border 
Protection.
    Next, we have Mr. John V. Kelly, who serves as the 
Department's acting inspector general. Mr. Kelly joined the 
Office of Inspector General in 2008 and was appointed deputy 
inspector general in 2016. Prior to joining the OIG, he served 
as the assistant director of forensic audits and special 
investigations at the Government Accountability Office.
    I am going to briefly yield to Ranking Member Crenshaw to 
introduce the minority's witness, Captain Greg Davis.
    Mr. Crenshaw. Thank you, Madam Chairwoman.
    I have the pleasure of introducing Texas Department of 
Public Safety Captain Greg Davis. Captain Davis has a long and 
distinguished career of public service spanning 3 decades. He 
began his career in the U.S. Marine Corps as a Military 
Policeman before serving in law enforcement at the Department 
of Veterans Affairs, the Texas Attorney General's Office, 
University of Texas at Austin, and now, for the past 17 years, 
with the Texas Department of Public Safety.
    I am very grateful to Captain Davis that he has come here 
to testify today. I know how hard it is to leave Texas when you 
don't have to.
    Thank you for coming, Captain Davis. We really owe you a 
debt of gratitude for your service and look forward to your 
testimony.
    Ms. Torres Small. Not as hard as it is to leave New Mexico, 
but--without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statements 
for 5 minutes, beginning with Director Walters.

     STATEMENT OF THOMAS J. WALTERS, DIRECTOR, FEDERAL LAW 
   ENFORCEMENT TRAINING CENTERS, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Walters. Thank you, Madam Chairwoman Torres Small, 
Ranking Member Crenshaw, committee Members. Greetings to all.
    We--that is, all of us at the--in the Federal law 
enforcement community really thank you for holding this 
hearing. I believe it has been some 5 years or so since this--
Federal Law Enforcement Training Centers had the opportunity to 
testify in an open hearing before Congress.
    As we know and you have observed, law enforcement training 
often runs in the background behind law enforcement operations, 
and that is altogether righteous and good and proper. But just 
as recruiting and hiring are important to law enforcement, so 
is training. That is my ambition today, to convey to you an 
understanding of our training strategy and our training 
operations at the Federal Law Enforcement Training Center, 
FLETC, and give you a sense of what authorities and 
responsibilities our community members reserve to themselves 
and what authorities and responsibilities the community members 
share.
    I understand that the focus of today's hearing is the 
organizations within the Department of Homeland Security that 
contribute staff, students, and resources to the community 
effort to train law enforcement professionals.
    For context, though, I note that every Cabinet-level 
department in the Executive branch, as well as organizations 
within the Judicial and Legislative branches of Government, 
rely on the Federal Law Enforcement Training Center for some or 
all of their training. They all contribute some level of staff, 
students, and resources to the community effort.
    Our community is grateful for the support of this Congress 
and every Congress since 1970 that have supported FLETC's 
training goals with appropriations, advice, oversight, 
authorizing language, and official visits to our facilities.
    My first association with the Federal Law Enforcement 
Training Center came as a young Border Patrol agent and 
instructor in 1978. I want to make sure for the record, that is 
1978, not 1878.
    I have worked as part of the FLETC community a half a dozen 
times in my 40-year Government career and since October 2017 as 
its director.
    FLETC is nearly 50. FLETC is and always has been a 
technical training school for law enforcement professionals.
    FLETC is part of DHS. As noted in our authorizing 
legislation, FLETC is led by a director and reports to the 
Secretary of Homeland Security.
    Our history began in 1970. In 1970, the Federal law 
enforcement leaders of the day commissioned FLETC to do two 
simple things: To bring consistency to Federal law enforcement 
training and to provide the means to develop and deliver that 
training.
    While the concept is simple, the execution of that concept 
is often challenging, and never more so than today.
    Most of our training businesses is conducted for the 
benefit of the Department of Homeland Security organizations. 
That is about 70 percent of our workload. However, more than 90 
Federal agencies and many State and local organizations rely on 
FLETC for some of their training.
    For example, the Capitol Police, that effectively provide 
security here in the Capitol, also trained at FLETC, even 
though they are part of the Legislative branch.
    FLETC and its participating organizations team up to train 
upwards, as you both have observed, 70,000 students every year. 
We operate 4 training delivery sites occupying 3,300 acres in 
New Mexico, South Carolina, Maryland, and Georgia.
    You all have my written testimony and a copy of our 
strategic plan, but allow me to set some additional context. 
When I came on as the director in October 2017, I looked around 
the Federal Law Enforcement Training Center, and I found a lot 
more of the 1970's and a lot less of the year 2017 than I 
thought was appropriate.
    So, at FLETC, we reexamined our strategic direction, 
refreshed our strategic plan, and moved from where we were in 
1970 to where we ought to be in the year 2022. We developed and 
won approval for the strategic plan you see before you today.
    FLETC is an institution with a terrific past and tremendous 
potential for the future. While grateful for the trust that 
Congress has placed in us--and I invite the Members of this 
subcommittee and their staff to visit our sites to see what our 
community does each day.
    FLETC's staff, many of whom are or were members of the 
organizations they train, identify profoundly with the outcome 
of their work. No one is more committed than they are to 
preparing those entrusted to their care for the demanding, 
often dangerous, challenges of the operating environment.
    I have every confidence, though, with the strategy to give 
direction to the energy, focus, and imagination of the staff, 
you can be certain that FLETC will get the job done.
    Thank you, and I will do my best to answer your questions.
    [The prepared statement of Mr. Walters follows:]
                Prepared Statement of Thomas J. Walters
                              May 16, 2019
                              introduction
    Good morning Chairwoman Torres-Small, Ranking Member Crenshaw, and 
Members of the subcommittee. It is an honor to be here today with my 
colleagues from the Department of Homeland Security (DHS), Office of 
the Inspector General, and the Texas Department of Public Safety. I am 
particularly gratified to appear before this subcommittee during 
National Police Week, as law enforcement professionals converge on our 
Nation's Capital from around the country and the world to collectively 
honor those who have made the ultimate sacrifice for our Nation and its 
people.
                             fletc overview
    In just 1 year, the Federal Law Enforcement Training Centers 
(FLETC) will reach the 50th anniversary of its establishment by 
Congress.
    The FLETC of today is not the FLETC of 1970, yet throughout these 5 
decades we have remained faithful to the two complementary strategic 
goals envisioned by our founders. First, Congress intended for FLETC to 
establish consistency and constancy in the content and delivery of 
Federal law enforcement training. Second, our founders envisioned that 
FLETC would leverage the advantages of a centrally managed, universally 
accessible training infrastructure. Today, we are on a strategic path 
to our future as the Nation's enterprise resource for Federal law 
enforcement training. I have been privileged to serve as the director 
of this institution since October 2017.
    I would like to acknowledge and thank Congress for its long-
standing support of FLETC's mission. FLETC is a technical school that 
prepares Federal law enforcement personnel to be effective in their 
operating environments. Since our establishment, we have developed an 
unsurpassed expertise in the art and science of developing law 
enforcement training. We deliver training in subjects integral to the 
performance of law enforcement functions across the Federal Government, 
such as firearms, driving, tactics, investigations, and legal training. 
We assist participating organizations from throughout the Federal 
Government in providing training unique to their missions at FLETC 
training sites.
    Each day, tens of thousands of Federal law enforcement personnel 
anticipate, prevent, and respond to events that threaten our Nation's 
people, property, and institutions. Throughout the homeland and abroad, 
U.S. agents, officers, investigators, inspectors, and screeners assess, 
plan, patrol, inspect, examine, apprehend, investigate, interview, and 
perform thousands of other specialized tasks essential to fulfilling 
their agencies' missions. Much of the Federal law enforcement community 
relies on FLETC to prepare their enforcement personnel for these 
responsibilities.
    Headquartered in Glynco, Georgia, FLETC and its Federal 
participating organizations annually train upwards of 70,000 students 
at 4 training delivery sites occupying 3,300 acres in New Mexico, South 
Carolina, Maryland, and Georgia.
    A typical day will find FLETC and participating agency staff 
actively engaged in delivering, exercising, and evaluating the transfer 
of critical law enforcement knowledge and skills for 3,000 students, 
most of whom are in-residence at a FLETC training delivery point.
    In addition to basic training, FLETC leverages the expertise of its 
training partners and stakeholders to offer the most comprehensive 
inventory of specialized and advanced training programs in law 
enforcement.
    State, local, and Tribal law enforcement personnel are an integral 
part of the homeland security community. As a resource to them, FLETC 
provides specialized and advanced training at its training sites and 
exports training programs to State, local, and Tribal agencies 
throughout the country.
    FLETC is also a resource for U.S. Federal law enforcement agencies 
with an international mission. FLETC participates in the International 
Law Enforcement Academies' (ILEA) programs in Botswana, El Salvador, 
Thailand, Hungary, Ghana, and New Mexico. FLETC brings a unique value 
to the international missions of the U.S. law enforcement community 
through its support for the ILEA program. Through our participation, 
FLETC builds critical capacity of our fellow agencies' operational 
counterparts and strengthens law enforcement networks that help defeat 
criminal organizations before their enterprise reaches our shores. 
Additionally, we provide law enforcement training and support capacity-
building activities overseas on a reimbursable basis with the U.S. 
Department of State, host individual international law enforcement 
personnel at FLETC's domestic training sites, and engage with 
international stakeholders in research and the exchange of best 
practices and subject-matter expertise.
        fletc's strategic framework: producer, resource, steward
    Last week, FLETC was proud to share with each Member of the 
subcommittee a copy of our 2018-2022 Strategic Plan, which establishes 
a foundation for our future. We refreshed our mission statement to read 
as follows: ``FLETC, through strategic partnerships, prepares the 
Federal law enforcement community to safeguard the American people, our 
homeland, and our values.''
    We envision FLETC as a National resource for law enforcement 
training and commit to a course of continuous cooperation and 
collaboration with our clients, while balancing the equities of all 
stakeholders in administering FLETC's training programs.
    Our mission assigns three enterprise-level law enforcement training 
activities to FLETC--producer, resource, and steward. We produce 
training and associated expertise to meet the operational needs of our 
Federal participating organizations; we are a resource for the State, 
local, Tribal, private, and international law enforcement communities; 
and we are the Federal Government's steward for Federal basic training 
resources. This three-fold framework provides us with clear parameters 
regarding our purpose.
                          fletc as a producer
    FLETC produces what we have come to refer to as ``STRIPES'': Law 
enforcement training systems, trainings, research, infrastructure, 
products, expertise, and services. Together, these elements contribute 
to developing the essential competencies our students need to be 
effective in their agencies' operating environments. The value of what 
we produce is measured by how well our students perform in those 
environments as assessed by our participating organizations.
    We use a Systems Approach to Training (SAT). This is a six-phase 
methodology for developing and revising training that includes 
analysis, design, development, implementation, evaluation, and 
revision/review. Within this framework, we follow an Instructional 
Systems Design (ISD) process that allows flexibility and movement back 
and forth between the defined phases of the SAT. After 50 years of 
evolution, FLETC is expert at the ISD process, and our clients can be 
assured that the training they receive at FLETC has been subject to 
rigorous development processes.
    These processes provide the thoroughness and exactitude we need to 
adhere to the principles of formal accreditation of our training 
through the Federal Law Enforcement Training Accreditation Board 
(FLETA). FLETA is an organization independent from FLETC that guides 
Federal law enforcement organizations in building effective, 
academically rigorous, defendable, responsive, cost-controlled, Federal 
law enforcement training. The 17-year old institution created and 
maintains a set of standards for academy and program accreditation that 
ensure agencies establish effective processes for academy and training 
program administration, academy/training staff, training development, 
training delivery, and the distance learning processes.
    As long as I am director, I will champion FLETC's participation in 
formal accreditation, and I will encourage agency training components 
to participate as well. Formal accreditation assigns rigor to our 
training processes, ensures we are good stewards of the resources 
entrusted to us, and safeguards the use of analysis rather than opinion 
in training review and development. FLETC adheres to accreditation 
principles not because they are a requirement, but because it is the 
right thing to do and results in the best product for our clients. The 
practitioners we serve work in a world where bullets fly, arrests are 
made, and lives can change quickly. The formal processes we at FLETC 
have dedicated ourselves to as we write, review, and modify training 
curriculum ensure that the training we produce reflects the quality 
this profession requires.
                          fletc as a resource
    FLETC produces the full range of training and training services for 
the Federal law enforcement community. To the extent we are able, we 
provide access to what we produce to the State, local, Tribal, private, 
and international law enforcement communities.
    FLETC is a powerful resource for the hundreds of thousands of 
State, local, and Tribal law enforcement officers who patrol and serve 
our communities. Because we cannot possibly deliver the training we 
produce to all of our brothers and sisters at the State and local 
levels, we take an approach that allows us to have the most impact in 
the most pressing topics of the day. Law enforcement's response to mass 
shootings is an example.
    Our Nation has witnessed horrific mass shootings over the past 
decade in places our children and neighbors should feel safe. FLETC 
collaborates with its law enforcement partners on developing training 
for law enforcement professionals responding to those events. Since 
2014, FLETC has trained more than 14,000 State, local, and Tribal law 
enforcement personnel in active threat and tactical medical response, 
including more than 5,000 trainers who in turn bring the training they 
received to those in their departments and communities. We focus our 
energies and resources on a force-multiplying approach: We prioritize 
training law enforcement trainers to train other law enforcement 
trainers. This approach has the potential for quickly and effectively 
sharing the law enforcement knowledge, skills, techniques, and tactics 
that have proven effective in managing emerging threats.
    The active threat and tactical medical training we have delivered 
throughout the Nation has made a difference, as told to us by graduates 
who have shared their testimonials of using their training to save 
lives in incidents ranging from vehicular accidents to mass shootings. 
For example:

``On November 20, 2014, a lone gunman opened fire at the Florida State 
University (FSU) library in Tallahassee, Florida, which was packed with 
300 to 400 students studying for final exams. Three students were 
wounded, but responding officers quickly engaged the gunman and stopped 
the threat. An FSU police officer who attended an export session of 
FLETC's Active-Shooter Threat Instructor Training Program at the 
University of Central Florida later provided active-shooter training to 
FSU and local police, one of whom shot the library gunman and prevented 
any further violence. The FLETC graduate contacted his FLETC instructor 
and credited the training he received and subsequently taught to other 
officers with saving lives during the event. He also stated that 
FLETC's sharing of the DHS-produced `Run, Hide, Fight' video prevented 
further casualties. He had used the video to train all students and 
staff at FSU prior to the shooting incident. Students in the library 
remembered this training and fortified their positions, denying the 
attacker access to target-rich environments.''

    FLETC is an impactful resource for our State, local, and Tribal law 
enforcement partners in preparing them to join the fight against human 
trafficking. FLETC has worked closely with the U.S. Department of 
Homeland Security's (DHS) Blue Campaign efforts since its inception in 
2010, partnering with operational components to create courses and 
videos to train law enforcement on how to recognize the horrific crimes 
of human trafficking. Today, FLETC's basic law enforcement training 
programs include human trafficking awareness training, and every FLETC 
basic student views a human trafficking awareness training video 
developed in collaboration with the Blue Campaign. Since 2012, FLETC 
has joined with the Department's Office of Legislative Affairs to 
provide human trafficking awareness education to Members of Congress 
and their staffs, including participating in a number of field 
awareness events and roundtables to help spread awareness about this 
important topic.
    Next week at FLETC's Charleston location, we will pilot the FLETC 
Human Trafficking Awareness Training Program, a 2-day program that will 
provide Federal, State, local, and Tribal law enforcement agencies with 
an in-depth understanding of indicators of human trafficking that law 
enforcement officers may encounter while conducting their agencies' 
missions. The law enforcement professionals participating in the 
program will return to their communities, prepared to share what they 
have learned with their own officers, their law enforcement partners, 
and other key community stakeholders.
                           fletc as a steward
    Since 1970, Congress has appropriated funds for FLETC's operations, 
and further codified our authorized activities and responsibilities in 
2016. Our new Strategic Plan honors this nearly 50-year-old charge for 
FLETC to be a responsible steward of the resources entrusted to us and 
enables us to responsibly align resources in accordance with the 
missions and priorities of the law enforcement community.
    FLETC is the U.S. Government's executive agent for the Federal 
resources allocated for the basic training of the law enforcement 
personnel of FLETC's Federal participating organizations. Our 
stakeholders rely on us to provide quality, cost-controlled training 
products in every variation of the Federal budget environment. FLETC 
works collaboratively with our participating organizations to formulate 
annual hiring requirements and to adjust the execution of those plans 
every quarter of the fiscal year.
    FLETC's formulation and execution of training relies upon a 
triangle of interrelated factors--time, quality, and resources. In this 
triangle, our staff and the participating organization agree that the 
nature of law enforcement allows for no reduction in the quality of 
training FLETC produces and delivers. The remaining two elements, time 
and resources, are inversely proportional to one another. We can 
deliver training in a shorter time period if given more resources. 
Conversely, we can deliver the same training with fewer resources if 
given a longer period of time to do so. Responsible stewardship 
requires careful consideration of this triangle as we aim to optimize 
our training capacity to accommodate the hiring needs of our 
participating organizations. Our implementation of required training is 
scalable, depending on trainee throughput and time line decisions.
    FLETC will not sacrifice the quality of the training new officers 
and agents receive. The development of any training program required to 
meet training needs will be based upon best practices in education and 
training, grounded in learning theory, research-based, built on 
experiential learning principles, and proven before deployment. As a 
steward, we uphold the quality of the training we produce, and balance 
the competing interests of time and resources to produce what our 
participating organizations need to meet the requirements of their 
operating environments. As our participating organizations hire new law 
enforcement officers and agents, we will be prepared to train them.
                                closing
    FLETC is an institution with tremendous potential. We are grateful 
for the trust the Congress has placed in us, and I invite the Members 
of this subcommittee and their staffs to visit any of our sites to see 
first-hand what we do each day. FLETC's staff, many of whom are or were 
members of the organizations they train, identify profoundly with the 
outcome of their work. No one is more committed than they to preparing 
those entrusted to their care for the demanding and often dangerous 
challenges of the operating environment. With a strategy to give 
direction to the energy, focus, and imagination of our staff, this 
Nation can be certain FLETC and its partners will continue to work hard 
to train those who protect our homeland.
    Thank you. I would be pleased to answer any questions at this time.

    Ms. Torres Small. Thank you for your testimony.
    I now recognize Mr. Kelly to summarize his statement for 5 
minutes.

  STATEMENT OF JOHN V. KELLY, ACTING INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Kelly. Chairwoman Torres Small, Ranking Member 
Crenshaw, and Members of the subcommittee, thank you for 
inviting me to testify about the training challenges at the 
Federal Law Enforcement Training Centers.
    FLETC provides all phases of training to more than 90 
Federal law enforcement agencies, as well as State, local, 
Tribal, and international law enforcement agencies.
    In January 2017, the President issued Executive Orders 
directing DHS to hire an additional 5,000 Border Patrol agents 
and 10,000 immigration officers. FLETC faces significant 
challenges to train the 15,000 agents and officers DHS was 
directed to hire. Those challenges include funding limitations, 
impacted improvements to housing and training venues or 
facilities, training venues and housing--housing needs need 
improvement, and instructor programs need consistency.
    First, an increase in the number of students at FLETC will 
exacerbate existing funding challenges. Following the issuance 
of the Executive Orders, FLETC, Border Patrol, and ICE 
developed training plans and strategies to meet the hiring 
surge. However, funding limitations hampered FLETC's efforts to 
construct dormitories, offices, and training venues that 
support ICE and Border Patrol training.
    Second, FLETC's existing training venues need improvement. 
Border Patrol training venues do not accommodate revisions to 
the curriculum. This forces Border Patrol instructors to use 
workarounds that lack realism.
    For example, Border Patrol wanted to use a checkpoint venue 
that had a real bus terminal and use coach-style buses that 
actually cross the border. However, funding was not available 
for that venue. Therefore, Border Patrol uses yellow school 
buses and have trainees pretend to search imaginary storage 
compartments and imaginary bathrooms. This is a significant 
diminishment of the training value.
    Also, on-site housing was not always available. In fiscal 
year 2017, FLETC had to house 4,000--I am sorry--6,400 trainees 
at off-site lodging locations at a cost of over $5 million. For 
fiscal year 2018, FLETC told us it housed 9,200 trainees at 
off-site lodging locations, costing more than $11 million.
    Some of the off-site lodging was located up to 74 miles 
away from the training facilities, requiring individuals to 
commute roughly 2\1/2\ hours a day.
    Finally, Border Patrol, ICE Enforcement and Removal 
Operations, and ICE Homeland Security Investigations managed 
their instructor programs differently. This difference is most 
pronounced with ICE Homeland Security Investigations. Border 
Patrol and ICE ERO generally rotate instructors every 3 to 5 
years. However, ICE Homeland Security Investigations relies 
heavily on rotating instructors every 4 months.
    Rotating instructors every 4 months is ineffective. 
Component training officials generally agree it takes a minimum 
of 6 to 9 months for instructors to become qualified. Four-
month rotations do not ensure consistency in training and 
safety of instructions, which could lead to training 
degradation.
    Reliance on temporary duty instructors also is expensive. 
Using temporary duty instructors costs nearly double the amount 
to locate instructors for 3 to 5 years.
    In summary, prior to the Executive Orders, DHS directed--
DHS was directed to hire the 15,000 agents and officers. 
FLETC's training venues and housing capacity were already 
overextended. Without corrective actions, trainees will be less 
prepared, potentially hindering them from achieving their 
mission and increasing safety risks to themselves, other law 
enforcement officers, and anyone within their enforcement 
authority.
    I am pleased that the under secretary of management and the 
FLETC director concurred with our recommendations and has 
already implemented some of those recommendations and is 
working on correcting those other recommendations.
    I am also pleased that FLETC received about $50 million in 
fiscal year 2019 for construction and improvements. This 
funding should assist the agency address housing and training 
facility shortfalls.
    Madam Chairwoman, this concludes my testimony. I will be 
happy to answer questions from you or other Members of the 
subcommittee.
    [The prepared statement of Mr. Kelly follows:]
                  Prepared Statement of John V. Kelly
                              May 16, 2019
                            why we did this
    On January 25, 2017, the President issued two Executive Orders 
directing the Department of Homeland Security to hire an additional 
15,000 law enforcement officers. We conducted the audit discussed in 
this testimony to determine whether the Department and its components--
specifically FLETC, Border Patrol, and ICE--have the training 
strategies and capabilities in place to train 15,000 new agents and 
officers.
                           what we recommend
    We made three recommendations to improve training and coordination 
within the Department.
                             what we found
    The Federal Law Enforcement Training Centers (FLETC), U.S. Border 
Patrol (Border Patrol), and U.S. Immigration and Customs Enforcement 
(ICE) have each developed hiring surge training plans and strategies. 
However, we found challenges exist due to uncertain funding commitments 
and overextended throughput capacity, particularly as they affect 
training resource projections and expansion capabilities to meet hiring 
goals. We also identified crosscutting concerns with current training 
venue and housing conditions that will likely become more serious with 
increased demand.
    Additionally, the three components apply a different approach to 
managing and implementing their instructor programs. This impacts the 
effectiveness and cost of instructors, as well as the application of 
best practices.
    If these combined challenges and conditions continue, they may 
impede consistency and lead to a degradation in training and standards. 
As a result, trainees will be less prepared for their assigned field 
environment, potentially impeding mission achievability and increasing 
safety risk to themselves, other law enforcement officers, and anyone 
within their enforcement authority. Coordination among FLETC, Border 
Patrol, and ICE is critical to the effective expansion of capabilities 
for law enforcement training that meets the Executive Orders' 
requirements, but at the same time works within the limits of the funds 
granted.
                              dhs response
    The Department concurred with the three recommendations and has 
begun implementing corrective actions.
    Chairwoman Torres Small, Ranking Member Crenshaw, and Members of 
the subcommittee, thank you for inviting me to testify today about 
training challenges we recently identified at the Federal Law 
Enforcement Training Centers (FLETC).
    FLETC provides basic, advanced, specialized, and in-service 
requalification training for personnel from more than 90 Federal law 
enforcement agencies, as well as State, local, Tribal, and 
international law enforcement agencies. Its training curriculum covers 
numerous areas, such as use of force, active threat response, defensive 
tactics, firearms, terrorism, first response, interviewing and 
investigations, and Constitutional law. FLETC owns and operates three 
residential centers in the United States located in Artesia, New 
Mexico; Charleston, South Carolina; and Glynco, Georgia, and one 
nonresidential center in Cheltenham, Maryland. Our most recent FLETC-
related audit work focused on the basic training provided to personnel 
from U.S. Immigration and Customs Enforcement (ICE) and U.S. Customs 
and Border Protection (CBP) at the FLETC facilities in Glynco and 
Artesia.
    In January 2017, the President issued two Executive Orders (EO) 
directing the Department of Homeland Security (DHS) to hire an 
additional 5,000 Border Patrol agents and 10,000 Immigration officers. 
On February 20, 2017, the DHS Secretary issued implementing memorandums 
in support of the EOs, directing U.S. Border Patrol (Border Patrol) and 
ICE to ensure consistency in training and standards while taking 
immediate action to begin the hiring surge. In a December 2017 
management alert and a November 2018 report, we identified challenges 
FLETC faced in its ability to successfully train the 15,000 agents and 
officers the Department was directed to hire.\1\ In my testimony today, 
I will focus on these challenges, as well as the progress FLETC has 
made in addressing our report recommendations for corrective action.
---------------------------------------------------------------------------
    \1\ Management Alert--Safety Issue at FLETC Artesia Warehouse, OIG-
18-31, December 8, 2017; and DHS Training Needs for Hiring 15,000 
Border Patrol Agents and Immigration Officers, OIG-19-07, November 26, 
2018.
---------------------------------------------------------------------------
                  funding limitations impact training
    Following the issuance of the EOs in January 2017, FLETC, Border 
Patrol, and ICE developed training plans and strategies and assessed 
their capability to meet hiring surge projections; however, funding 
limitations delayed their implementation. For example, funding 
limitations hampered FLETC's efforts to construct necessary 
dormitories, offices, and training venues, such as modular classrooms, 
a transportation checkpoint, a non-lethal training ammunition shoot 
house, and other tactical training venues, to support ICE and CBP 
training. Once FLETC receives funding, components must still consider 
significant lead time for the design and construction of new training 
facilities. Numerous other factors, such as weather, market conditions 
(e.g., supply/demand of available labor and materials), and a 
construction project's acquisition strategy, can also affect projected 
time frames. Delays in funding can also affect DHS components' ability 
to promptly obtain the resources needed to construct facilities and may 
extend overall lead times for instructor availability.
    An increase in the number of students (increased student 
throughput) exacerbates already existing challenges to instructor 
availability. ICE Homeland Security Investigations (HSI) instructors 
said there are already instances in which they do not have the required 
number of instructors for a course, which forces instructors to divide 
the trainees into groups. For example, due to the limited number of 
instructors, the instructors said they might split a Defensive Tactics 
class of 24 students into 2 groups of 12 each. This means only half the 
class is trained at a time, which results in reduced overall training 
time devoted to each group of students.
              training venues and housing need improvement
    Existing training venues at FLETC need improvement--most notably 
the FLETC Artesia Training Center campus. Based on CBP's review of 
research by several external organizations, Border Patrol revised its 
training curriculum and identified areas to enhance training, 
emphasizing performance-based scenarios. However, because of the lack 
of funding, CBP has not been able to provide funding to FLETC to 
construct most of the training venues needed to accommodate its 
curriculum revisions. Lacking settings for performance-based scenarios, 
Border Patrol instructors must employ ``workarounds'' that lack 
realism.
    For example, for checkpoint training, Border Patrol Academy 
officials planned to use a training venue with a real-life terminal 
environment to provide, among other things, realistic training using 
coach-style buses. However, CBP was not able to construct the planned 
checkpoint training venue. As a result, Border Patrol used yellow 
school buses, which meant trainees had to pretend to search imaginary 
storage compartments and bathrooms. This significantly diminished the 
potential training value of using fully equipped coach-style buses.
    In addition, Border Patrol officials redesigned a Use of Force 
Simulator, which included enhanced 300-degree training, providing real-
world scenarios from almost any direction--thereby increasing critical 
thinking and judgment in use of force scenarios. The simulator also 
included programmable scenarios to address targeted problem areas and 
photos from actual patrol areas. However, CBP was not able to construct 
a venue for the redesigned simulator. Without this venue, trainees must 
rely on a workaround one-dimensional training scenario, which does not 
expose trainees to enhanced risk mitigation techniques, critical 
thinking skills, and total situational awareness during use of force 
exercises.
    According to a senior Border Patrol Academy official, ``the 
workarounds were intended as a short-term fix and are not meant to be a 
permanent part of the training program.'' As a result of using these 
workaround training venues, Border Patrol agents and officers are less 
prepared for the field environment.
    In addition, because of strong competition with other Federal, 
State, and local law enforcement organizations that train at FLETC, 
Border Patrol and ICE did not always have access to ``preferred'' 
training venues at FLETC. A preferred training venue provides more 
realistic scenarios in urban and residential settings, which include 
multi-floor and multi-room designs. ``Backup'' venues lack varied 
structures and features, which allow more realistic and effective 
training.
    Increased law enforcement training demands, coupled with 
insufficient funding to construct new venues, led to scheduling 
challenges and affected the availability of FLETC's preferred training 
venues. For example, the Glynco campus contains Danis City, a preferred 
training venue with suburban houses, shops, a police station, and other 
buildings for trainees to conduct realistic law enforcement training. 
When that facility is occupied, training must take place at the one-
level backup venue. This venue lacks stairwells, which precludes 
training in tactics to navigate such settings.
    In a December 2017 management alert, we notified the FLETC Director 
about a potentially unsafe secondary training venue. Specifically, 
during an August 2017 site visit to the FLETC Artesia Training Center 
campus, we identified a potential safety issue at a warehouse the 
Border Patrol Academy had been using to train new hires on search and 
conveyance. In 2009, a vehicle from an adjacent driving course ran off 
the course and struck the warehouse, leaving a hole in the metal siding 
and damaging a supporting column and its attached roof beam. Despite 
the accident report noting the damage, FLETC and Border Patrol 
continued to use the building for training. Continuing to use the 
warehouse for training and other purposes without an independent 
engineering or structural safety evaluation increases the safety risks 
for trainees and staff. In response to our site visit and alert 
recommendations, FLETC promptly implemented safety precautions on the 
driving course, discontinued use of the questionable warehouse, and 
commissioned an engineering study on the warehouse structure. In May 
2018, upon completion of the study, FLETC demolished the warehouse.
    As we also reported in November 2018, in fiscal year 2017, on-site 
housing was not available for all trainees in Glynco. The lack of 
availability was due to high student demand coupled with damage to 
FLETC dormitories caused by Hurricanes Matthew in 2016 and Irma in 
2017. In fiscal year 2017, FLETC in Glynco reported it exceeded its on-
site lodging capacity of 22,912 students and had to house students in 
off-site lodging--transporting 6,413 students up to 74 miles away. 
FLETC projected that in fiscal year 2018 it would have a student 
population of 33,803. Based on its dormitory capacity at the time, in 
that fiscal year, FLETC would have to house approximately 11,000 
students in off-site lodging.
    FLETC estimated it spent approximately $5.6 million for off-site 
lodging in fiscal year 2017 and, at the time of our report, projected 
that this figure would exceed $10 million in fiscal year 2018 based on 
overall demand. Off-site lodging also has a non-financial impact of 
reducing student access to other trainees and limiting opportunities to 
build camaraderie. We followed up with FLETC for the actual off-site 
lodging costs and, according to FLETC, they reported spending $11 
million for 9,200 students for off-site lodging during fiscal year 
2018.
    As a result of our audit findings, we recommended that the DHS 
under secretary of management, in collaboration with FLETC, Border 
Patrol, and ICE, develop and implement a comprehensive plan to 
identify, prioritize, and complete training venue and facility 
improvements, and also outline a strategy to address housing needs cost 
efficiently.
  instructor programs and policies managed and implemented differently
    During our audit, we also found that FLETC, Border Patrol, ICE 
Enforcement, and Removal Operations (ERO), and ICE HSI all applied 
different approaches to managing and implementing their instructor 
programs. Although FLETC, CBP, and ICE ERO have instructor rotation 
policies, HSI's lack of policy and heavy reliance on short-term, 
temporary instructors is both expensive and ineffective for ensuring 
consistent, safe training.
    Specifically, CBP and ERO have policies and generally use 3-5-year 
rotations, but the HSI training academy does not have an instructor 
rotation policy. Instead, to fulfill instruction requirements, HSI 
relies heavily on temporary duty instructors who rotate through FLETC 
in Glynco, GA, every 4 months. In fiscal year 2019, HSI projected it 
would need 176 temporary duty instructors. Using temporary duty 
instructors on 4-month rotations is ineffective because it does not 
ensure consistent and safe instruction. This approach could also lead 
to training degradation as component training officials generally agree 
it takes a minimum of 6-9 months for instructors to become qualified.
    Reliance on temporary duty instructors is expensive--each 4-month 
temporary duty assignment costs approximately $32,000 in travel and per 
diem expenses. We compared the costs for a rotational assignment with 
the cost for a temporary duty assignment. We found that, on average, 
given travel and per diem expenses for a 3-5-year period, assigning 
temporary duty instructors costs nearly double the amount to relocate 
an instructor for a rotational (3-5-year) assignment.
    Specifically, the costs range from $150,000-$200,000 for a 
rotational assignment compared to about $300,000-$480,000 for temporary 
duty assignments.
    We recommended that the Under Secretary of Management collaborate 
with DHS officials to develop and implement standards and procedures to 
address: (1) Optimal designations and durations for instructors 
assigned to FLETC and component training academies; (2) HSI's need for 
an established rotation policy; and (3) best practices for securing and 
retaining qualified instructors while ensuring consistent training.
                               conclusion
    Prior to the President issuing two EOs directing CBP and ICE to 
hire 15,000 additional agents and officers, FLETC's training venues and 
housing capacity were already overextended. FLETC will need to 
accommodate the anticipated Department hiring surge, as well as the 
expected increase in demand from other Federal, State, and local 
partner organizations. Although DHS has hiring surge training plans and 
strategies, it remains challenged by uncertain funding commitments and 
training conditions. For these reasons, we recommended that the FLETC 
Director convene training officials from Border Patrol, ICE, and other 
appropriate partner organizations to inform and help FLETC finalize a 
strategic plan for fiscal years 2019-2022. We recommended that the 
group work together to ensure FLETC can accommodate increases in demand 
and minimize disruption to law enforcement agency hiring and training 
plans.
    Without corrective action, the challenges we identified in our 
November 2018 report could lead to inconsistency and degradation in 
training and standards. As a result, trainees would be less prepared 
for their assigned field environment, potentially hindering them from 
achieving their mission and increasing safety risks to themselves, 
other law enforcement officers, and anyone within their enforcement 
authority. In light of the events at the Southwest Border, law 
enforcement must receive quality training so they can continue to 
fulfill their critical National security responsibilities safely and 
effectively. I am pleased to report that the DHS under secretary for 
management and the FLETC director concurred with our recommendations 
and have begun implementing corrective actions. I am also pleased that 
FLETC received $50 million in Procurement, Construction, and 
Improvements funding in its fiscal year 2019 appropriations. This 
funding should assist the agency as it begins to prioritize its plans 
for additional housing and training facilities.
    Madam Chairwoman, this concludes my testimony. I am happy to answer 
any questions you or other Members of the subcommittee may have.

    Ms. Torres Small. Thank you, Mr. Kelly.
    I now recognize Captain Davis to summarize his statement 
for 5 minutes.

  STATEMENT OF GREG DAVIS, DPS ACADEMY TRAINING COORDINATOR, 
               TEXAS DEPARTMENT OF PUBLIC SAFETY

    Captain Davis. Thank you for this opportunity to share.
    Throughout several years, the Federal Law Enforcement 
Training Center has played an integral role in the development 
of training platforms for the Texas Department of Public 
Safety.
    Commissioned personnel of the Texas DPS Education, 
Training, and Research Division have invested FLETC's training 
curriculum and diverse training opportunities nurturing our 
continuing efforts to provide our personnel with training of 
sound, relevant, and credentialed programming designed by 
FLETC, particularly in the areas of arrest control tactics, 
physical fitness testing and assessment, and vehicle emergency 
operations.
    Our agency has sent personnel to FLETC installations in 
Glynco and Artesia. We have also taken advantage of FLETC's 
export program to bring training to headquarters in Austin, 
Texas, on several occasions.
    During the last 14 years, professionally, I have attended 
and completed the following FLETC-accredited programs: The Law 
Enforcement Physical Fitness Testing Coordinator Training 
Program, the Law Enforcement Control Tactics Instructor 
Training Program, all of which are accredited by the Federal 
Law Enforcement Training Accreditation, which is why DPS 
continues to send and take part in FLETC training.
    These programs have led to significant, impactful changes 
within DPS training platforms which currently embed within the 
Trooper Training Academy and the in-service incumbent 
commission personnel.
    One of the significant and impactful platforms is the TXDPS 
Physical Fitness Testing and Assessment Model. This new, award-
winning fitness testing model is sweeping across the State and 
Nation and Canada. The foundations within the FLETC's Law 
Enforcement Fitness Coordinator Training Program inspired the 
evolution of this platform. As a result, we have been able to 
lower our risk of injury to all populations, to include boots 
on the ground, and garner support from risk management, legal, 
and EEO and ADA.
    In addition, upon request, we have continued to share 
presentations of our model with the following entities: The 
International Chiefs of Police Association, the State Police 
and Provincial Academy Directors, Law Enforcement Management 
Institute of Texas, which governs the Texas Law Enforcement 
Police Chief and Command Staff Leadership Series.
    Another impactful platform that FLETC has provided as a 
foundation is our Arrest Control Tactics Program. Our agency 
adopted the FLETC Law Enforcement Control Tactics Instructor 
Training Program and fully implemented in both our academy and 
incumbent personnel.
    Injuries are a significant point of concern for all 
agencies across the United States, and FLETC has always done a 
very, very good job with looking at ways to administer 
techniques and applications that lower the risk of injuries to 
the populations so that training is efficient.
    Efforts by agencies to reduce the risk of injury, again, is 
the utmost focus. FLETC efforts to provide agencies at the 
State and local with training curriculums based on medical, 
tactical, legal, risk management, peer-reviewed, and relevant 
research is critical through the law enforcement training 
infrastructure.
    Of equal value and extreme appreciation from the State and 
local is the level of professionalism that proliferates through 
FLETC's administrative support personnel, staff, instructor 
cadre, and leadership. The environment this team creates is 
conducive to a healthy learning experience and a valuable 
relationship year after year.
    Future. In recognition of the IACP 21st Century 
Recommendations for Law Enforcement Agencies, the sixth pillar 
of officer safety, wellness, and health, as well as de-
escalation directives, we would like FLETC, for the State and 
local, to continue its tradition of excellence in training by 
continuing to build programs and curriculums that nurture these 
recommendations and directives.
    Thank you for this opportunity to share. I am open to 
questions and issues.
    [The prepared statement of Mr. Davis follows:]
                    Prepared Statement of Greg Davis
                              May 16, 2019
    Throughout several years, the Federal Law Enforcement Training 
Center has played an integral role in the development of training 
platforms for the Texas Department of Public Safety (TXDPS). 
Commissioned personnel of the TXDPS Education Training Research 
Division have invested in FLETC's training curriculum and diverse 
training opportunities nurturing our continued efforts to ensure we are 
developing sound, relevant, and credentialed programming. Particularly, 
in the area of Arrest Control Tactics, Physical Fitness Testing/
Assessment, and Vehicle Operations.
    Our agency has sent personnel to FLETC installations in Glencoe and 
Artesia. We have also taken advantage of FLETC's export program to 
bring training to our HQs in Austin, Texas. During the last 14 years, 
professionally, I have attended and completed the following FLETC 
accredited programs: Law Enforcement Fitness Coordinator Program 
(LEFCTP-001B-2010), and the Law Enforcement Control Tactics Instructor 
Training Program (2005 & 2016). The Federal Law Enforcement Training 
Accreditation accredits these programs, which is why DPS continues to 
utilize training offered by FLETC. These programs have led to 
signifcant impactful changes within DPS training platforms, which, 
currently, imbed within the Trooper Trainee (academy) and in-service 
(incumbent) training.
    One of these significant and impactful platforms is the TXDPS 
Physical Fitness Testing and Assessment Model. This new award-winning 
fitness testing model is sweeping across the State of Texas, Nation, 
and Canada. The foundations within the FLETC's Law Enforcement Fitness 
Coordinator Training Program inspired the evolution for this platform. 
As a result, we have been able to lower our risk of injury to all 
populations (academy/incumbent) and garner support from risk 
management, legal, and EEO/ADA. In addition, upon request, we continue 
to share presentations of our model with the following entities: The 
International Chiefs of Police Association S&P, State Police and 
Provincial Academy Directors, Law Enforcment Management Institute of 
Texas (LEMIT) (Texas Law Enforcement Police Chief and Command Staff 
Leadership Series).
    Another impactful platform is our Arrest Control Tactics Training. 
Our agency adopted the FLETC Law Enforcement Control Tactics Instructor 
Training Program and fully implemented in both our academy and 
incumbent training. In addition, this FLETC curriculum has, also, 
lowered our risk of injury to our personnel both academy and incumbent. 
Injuries are a significant point of concern for agencies across the 
United States. Efforts by agencies to reduce the risk of injury is of 
the utmost focus. FLETC afforts to provide agencies of the State and 
local with training curriculums based on medical, tactical, legal, risk 
management, peer-reviewed, and relevant research is critical to the law 
enforcement-training infrastructure.
    Of equal value and appreciation from the State and local is the 
level of professionalism that proliferates through FLETC's 
administrative support personnel, staff, instructor cadre and 
leadership. The environment this team creates is conducive to a healthy 
learning experience and a valuable relationship year after year.
    Future:
    In recognition of the IACP 21st Century Recommendations for Law 
Enforcement Agencies--6th Pillar: Office Safety, Wellness, and Health; 
as well as de-escalation directives, I would like FLETC--State and 
Local--to continue its tradition of excellence in training by 
continuing to build programs and curriculums that nuture these 
recommendations and directives.

    Ms. Torres Small. Thank you, Mr. Davis.
    I thank all the witnesses for their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for questions.
    In recent years, migrants crossing our Southern Border have 
shifted from largely single adult male population to more 
families and unaccompanied children. While FLETC is not 
responsible for Border Patrol curriculum, you do have a vital 
coordination role.
    How have FLETC's training programs, particularly for 
Customs and Border Protection and Immigration and Customs 
Enforcement, adapted to the changing dynamic at the border, if 
at all?
    Mr. Walters.
    Mr. Walters. Thank you for the question.
    The organizations themselves have some authority and 
responsibility to develop the training. Once they develop, they 
find a need and describe the need to us, as we have a good 
record of providing the resources necessary for that. So, as 
Border Patrol moved from a 66-day program recently to a 117-day 
program, they found to the need for increased scenario-based 
training to fill that need--to fill that requirement. So they 
presented that to us as an issue, and we helped them design the 
facilities that we are building on their behalf to do that kind 
of thing.
    So, as far as the structure goes of the curriculum, you are 
right. Border Patrol has a lot of responsibility for 
identifying what the training need is. They have a very robust 
officer training development over in CBP, or at least it was 
when I left it. I am sure it is very good now. But they 
developed the training points, and we facilitate that training 
after that. We work very closely with them. We meet with them 
at Artesia, which is the home for the Border Patrol Academy, on 
almost a daily basis to resolve issues and make the training 
better.
    Ms. Torres Small. Mr. Walters, do you have any specific 
examples of that scenario-based training that has been added to 
address these changing circumstances?
    Mr. Walters. Yes. In fact, the Border Patrol found the 
need, because we now have sections of border wall that we 
didn't used to have. They built models for that on the Artesia 
facility. We helped organize that and get that done. They built 
the training venues around that so that the officers in 
training are able to work in a realistic environment to help 
embed that training in their process.
    Ms. Torres Small. I understand the border wall addition. I 
think the question is more about the changing population that 
is presenting along the border.
    Do you have any examples of how the changing population--
scenarios address the changing population?
    Mr. Walters. I don't know that the Border Patrol has tasked 
us to develop anything about the changing population. I know 
that they have adjusted their internal training course----
    Ms. Torres Small. That is fine. I want to move on. I 
appreciate it, and I appreciate what you are doing there.
    Mr. Walters, every year FLETC undertakes the immense 
challenge of scheduling training for about 100 partners at 700 
facilities for upward of 70,000 students.
    What impact do funding and hiring uncertainties have on 
your ability to schedule training courses for the year ahead?
    Mr. Walters. Of course, I am not alone in the Federal 
Government about the uncertainties of the Federal budget. But 
it does have an impact on us that is perhaps a little bit 
different from many, because I have to ask my organizations 
that participate about 18 months in advance how many they think 
they are going to train.
    So, for me, they have to predict themselves what the 
Federal budget outcomes are going to be. So I get about a 75 
percent accuracy on projections. The other way to look at that, 
and the way I have to look at it, is I have a 25 percent error 
factor when I am calculating what my investment should be in 
training, infrastructure, and just the--bringing enough staff 
on to manage the issues.
    So that is basically our issue. But the good side of it is 
we reexamine our training schedule on a quarterly basis, and we 
make adjustments throughout the year. We are not--we don't set 
it in the beginning of the year and then never change. We 
change on a quarterly basis or more often where it is 
necessary.
    Ms. Torres Small. In the last time I have, has FLETC been 
able to accommodate all training requests made by DHS 
components or by partner organizations?
    Mr. Walters. Yes, we have, over time and recently as well. 
We are pretty proud that we have been able to cope. We have a 
lot of different strategies to make sure that we get the 
training done.
    We never sacrifice quality, but we do have to work with the 
other two parts of that iron triangle of resources and time.
    Ms. Torres Small. Thank you. I will yield the remaining 
amount of my time.
    Now I am going to recognize the Ranking Member of the 
subcommittee, the gentleman from Texas, Mr. Crenshaw, for 
questions.
    Mr. Crenshaw. The place that is very hard to leave.
    Thank you, Chairwoman Torres Small.
    Thank you all for being here again.
    Mr. Walters, will you go over in summary how the 
recommendations from the OIG's office are being implemented 
now?
    Mr. Walters. Yes. Thank you.
    That was really good work by the Office of the Inspector 
General. They have done some things for the organization with 
their study that I could not do for myself as part of the 
Federal Law Enforcement Training Center.
    First off was the dormitory situation. So what we have done 
is do hurricane repair. A lot of rooms were damaged by the 
hurricanes that came through. For the shorter term, we actually 
did double bunking to reduce--to maximize the on-base housing 
and minimize the amount of time that students have to be off-
base. We are fortunate enough with a lot of support to get $19 
million for a new dormitory in Glynco.
    Now, the other part of that is we got about $21 million for 
tactical venues. When I say ``tactical venues,'' I am talking 
about realistic environments where investigators would operate, 
so we call it a raid house, a place they would go and do their 
business in a raid house, in a warehouse, and those kinds of 
things.
    We also got $2.1 million for a training venue, Tactical 
Awareness Center in Artesia, New Mexico.
    So those are the kinds of things we did to address those 
two pieces of the OIG report.
    Mr. Crenshaw. I appreciate that.
    On the issue of these 4-month rotations, has the question 
come up of whether to make this a permanent billet? I think you 
mentioned 3 to 5 years would be a normal rotational billet. Why 
is that so difficult to implement for some of these agencies?
    Mr. Walters. Well, for our part, at the Federal Law 
Enforcement Training Center, we set out an expectation. That 
expectation is memorialized in a memorandum of agreement.
    In fact, most agencies have a policy that says they will 
provide training as--instructors as requested on a 3-5-year 
rotation. However, with my background--and I think my friend 
from the Department of Public Safety in Texas would agree--that 
for the agencies themselves, their dynamic works like this. 
They have sort-of the imperative of the midnight shift, I will 
call it.
    Every investment and training is a 1-to-1 subtraction from 
operations. So they are reluctant to invest long-term, again 
with the uncertainties of the Federal budget, to put 100 
instructors, let's say, at the Federal Law Enforcement Training 
Center for 3-5-year rotations, when the uncertainty of the 
budget may be that they don't get the training. Now they have 
got the people there, but they don't have the training.
    So that is sort-of the dynamic for our friends in the 
operating environment.
    Mr. Crenshaw. But they are still losing the people there 
anyway because they are still sending somebody there for 4 
months. What we have all come to the conclusion of is it is 
rather ineffective because they are just getting their feet 
under them, figuring out how to be trainers, and then they are 
gone. So, I mean, you are still losing that personnel anyway.
    So it is just a bit confusing to me why we wouldn't do--
this is effectively what the military does. We say: You are 
going to be a trainer for 2 years. Done, that is it, and that 
is the life you chose, so there you go. It would seem to me 
that would be a better model and much more cost-effective for 
the law enforcement as well. But I understand there are 
internal dynamics; it is a different type of job.
    But we will move on. I believe we will do another round, so 
we will have lots more questions.
    But I want to ask you about how these courses are 
evaluated, the effectiveness of these courses, and do they 
change often based on feedback and changing needs and how often 
is that?
    Mr. Walters. That is a great question. So part of our 
process is to have the curriculum conference review on a 
regular basis, which is a set piece where we reevaluate for 
long-term changes in the training programs. That is not just 
the Federal Law Enforcement Training Center; that is all of the 
participating organizations do that.
    On a quarterly basis, we look at more short-term changes 
that are required and identify those changes, nominate those. 
The agencies can nominate those. The Federal Law Enforcement 
Training Center can nominate those changes. Frequently, they 
come in the form of things like a court decision or brand-new 
equipment that shows up that our adversaries might use against 
us, those kinds of things.
    But each agency has the option to insert a piece of 
training at their discretion instantly, if not sooner, 
depending on what their need is.
    So that process is pretty responsive to the organizations.
    Mr. Crenshaw. I am out of time.
    Ms. Torres Small. Thank you.
    The Chair recognizes for 5 minutes the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chairwoman.
    Gentlemen, thank you for your service.
    Inspector General Kelly, the additional 15,000 professional 
law enforcement officers, 5,000 Custom and Border Protection, 
10,000 ICE, let's refer to that as a hiring surge, shall we? So 
we can move on.
    One of the large questions of this subcommittee is 
regarding budgeting and if you have enough money in the budget. 
This is a focus. We have to be protectors of the people's 
treasure and good stewards of the money that is harvested from 
working Americans to pay for Federal services, including this 
hiring surge.
    The President's 2020 budget request, almost $351 million 
for FLETC, is that sufficient to address the housing and 
structural issues within the facilities?
    Mr. Kelly. I believe the answer to that is yes.
    Mr. Higgins. OK. That was a direct answer and fast, so I 
will take it as solid.
    Director Walters, the inspector general referred to some 
training challenges and venues. So, while we are talking about 
the people's treasure and expenditures, I was a cop for a long 
time, SWAT cop for 12 years, went through a lot of training 
scenarios.
    You mentioned real-life terminal environment. The inspector 
general mentioned in his testimony, real-life terminal 
environment venue that the Border Patrol Academy was unable to 
produce, and they ended up using yellow school buses for, I 
guess, linear assault training and search and et cetera.
    Where did these yellow buses come from, and why couldn't 
you get charter buses? What is the variant in expense there? 
You say you were unable to use fully equipped coach-style 
buses. Why not? If you had yellow buses, why could you not 
procure no-longer-in-service charter buses for training 
scenario purposes?
    Mr. Walters. In fact, for that particular--you are right 
that the reality--the reality-based training scenarios are like 
the environment is an important ingredient for them to learn 
how to operate in their environment.
    When the Border Patrol went from a 66-day program to a 117-
day program and they invested a lot more in scenario-based 
training, they made the active decision to go forward with what 
they had rather than wait for the resources. Sometimes, as you 
know, if you wait for----
    Mr. Higgins. They already had school buses?
    Mr. Walters. We had school buses. We had been using them--
--
    Mr. Higgins. Generally no-longer-in-service vehicles that 
they are parked, how many of them did they have there?
    Mr. Walters. I would have to get back to you on the exact 
number, but I have seen at least 6--6 to 8.
    Mr. Higgins. Six, 8, 10, that would be normal for a large 
training facility like that. It just seems to me, again, 
regarding being good stewards of the people's treasure that if 
you can purchase a yellow bus that is no longer in service, you 
could purchase a charter bus for realistic scenario training.
    To build a venue, I am not sure what that means. Can you 
clarify? Because it seems to me that the venue would be a large 
parking lot, and I am pretty sure you have that in your 
training facilities.
    Mr. Walters. Indeed, we do have a large parking lot, and we 
have some of that covered.
    Just to clarify, in the last couple of months, we did 
acquire a coach-style bus for the Border Patrol, set it up, got 
it air-conditioned----
    Mr. Higgins. Excellent.
    Mr. Walters [continuing]. And it is now in use.
    Mr. Higgins. OK.
    Mr. Walters. What the Border Patrol had envisioned----
    Mr. Higgins. These are common-sense questions that the 
American people deserve to know, and respectfully I ask these 
questions.
    Regarding the 300-degree training, this is--and you 
referred to that you were not able to build a venue to install 
that 300-degree training and that they had to use workarounds 
with one-dimensional training; that is similar to the old 
firearm trainings scenario, FATS system and what the screen is, 
and you are talking about having screens that surround the 
agent for more realistic training?
    Mr. Walters. That is exactly what they had in mind.
    Mr. Higgins. Do you have the software and the screens?
    Mr. Walters. No, we do not.
    Mr. Higgins. Do not. So that would be a large expense. But 
you have the room to install it?
    Mr. Walters. Yes, sir. That would be----
    Mr. Higgins. Does the President's budget give you 
sufficient money to get that done? Because that is important; 
current generation training is invaluable for a young officer 
coming out of academy.
    Mr. Walters. All of those pieces that were identified in 
the OIG report are being addressed. Some are already funded; 
some are requested.
    Mr. Higgins. OK.
    Madam Chairwoman, thank you. My time has expired. Perhaps, 
we will have a second round.
    Ms. Torres Small. Yes. I think let's go ahead and do a 
second round. Thank you.
    So I will recognize myself again for questions.
    I want to circle back to instructors. I really appreciate 
the conversation that all of you were having with Mr. Crenshaw.
    FLETC's largest partners, U.S. Border Patrol, ICE 
Enforcement and Removal Operation, and ICE Homeland Security 
Investigations, all have different approaches to managing and 
implementing their programs for providing instructors for 
FLETC. We have discussed this a bit. Specifically Mr. Kelly and 
Mr. Walters have discussed the impact in terms of quality of 
training.
    How has this impacted the cost-effectiveness of training?
    Mr. Walters. For instructors, as you observe, are probably 
the single most important factor in the learning that the 
student retains. Everything else is involved. But that is the 
single most important piece.
    So, for the instructors, we try and get--an instructor 
takes about a year to develop. You take a subject-matter 
expert, goes through all of the learning processes, including 
learning how to manage the--master the content, the training 
content, the training delivery methods, to manage the classroom 
itself. So it takes a year for them to be a useful instructor 
to be a positive impact.
    So what--the cost savings there is--the most economical 
factor is to bring them on to the Federal Law Enforcement 
Training Center, let us develop them, and then keep them there 
for 3 to 5 years. That is the most cost-effective.
    Ms. Torres Small. Mr. Kelly, do you have anything to add?
    Mr. Kelly. Yes. I think the most expensive aspect of what 
you are talking about is the per diem and travel expenses 
associated with bringing people in for roughly 4 to 5 months. 
That is a lot more expensive than stationing someone to live 
down there for 3 to 5 years.
    As Director Walters mentioned, the stability of the 
training is not going to be the same when you have someone 
cycling through for a short period of time.
    Really the overall component doesn't get an opportunity to 
develop that trainer to be a better leader, because they will 
actually benefit from actually spending some time as a trainer, 
as opposed to not getting that leadership experience.
    Ms. Torres Small. Thank you.
    Mr. Walters, do partners consult with FLETC when making 
revisions to their training programs, including decisions about 
instructors?
    Mr. Walters. The partners consult with us on the content of 
training programs. We have a memorandum of agreement with all 
of our participating organizations that defines our 
expectations, sort-of a contract between us on providing 
instructors. Sometimes they honor it faithfully, and sometimes 
they are unable to do that.
    Ms. Torres Small. Thank you.
    I just want to go back to the surge in hiring and the 
potential impacts. I appreciate your comments, Mr. Walters, in 
addressing that.
    I wanted to follow up, Mr. Kelly, to see if you had any 
comments about a potential--the impact the hiring surge would 
have on FLETC's ability to schedule training courses to 
accommodate all trainees.
    Mr. Kelly. The surge is exacerbating existing problems. 
Right now, without the additional hiring, FLETC is having a 
difficult time making sure that they have the realistic type of 
training opportunities to provide the trainees, the students.
    That is going to get worse before it gets better. It is 
going to take lead time for FLETC to design the facilities and 
then have them constructed. These things are not going to go up 
overnight. So it is going to be a while before they actually 
are going to be at full swing.
    Ms. Torres Small. I really appreciated the comments that 
Mr. Crenshaw had about the training on active shooting. I was 
able to witness a training that was somewhat different, but it 
was a medical training that a Border Patrol agent had with--a 
Border Patrol agent that had been fallen and had been shot and 
the medical training that was provided to him. So we definitely 
see the value of this in the field and the importance of having 
that training.
    I wanted to ask if FLETC officers receive any other types 
of medical care training for individuals encountered by law 
enforcement officers or the officers themselves.
    Mr. Walters. Yes, we do. At least in our basic programs, we 
have some of the basic first responder kind of care, CPR and 
those kinds of issues.
    But what Mr. Crenshaw and others are referring to is our 
active--our tactical medical training. As you observed and when 
we spoke the other day, the military has had this training for 
a long time. It is in terrific demand. It is really needed, and 
it is one of our most requested subject matters. So we are 
spreading the good word on that, and it has been very useful.
    A week doesn't go by where I don't get some kind of 
notification from the field of: Thank you for the training that 
you delivered; the outcome would have been different if I had 
not had this training.
    So I think we are on the right track there.
    Ms. Torres Small. Thank you.
    Now I will recognize for 5 minutes, the Ranking Member, the 
gentleman from Texas, Mr. Crenshaw.
    Mr. Crenshaw. Madam Chairwoman.
    I am going to continue on that line of thought, the 
tactical medical training. I will move to Mr. Davis.
    First, I want to ask you, though, what--actually let's 
stick with the medical training.
    Speaking before, you mentioned Texas leading the way on its 
own with a similar tactical medical training, I think you 
called it--well, I will let me you explain, because you know 
exactly what I am talking about. What was the acronym you all 
used? Explain very briefly how Texas pioneered this and got it 
down to the lowest level.
    Captain Davis. Yes, sir.
    So the program that you are referring to is the Tactical 
Emergency Casualty Care Program. It was implemented in August 
2015. What brought about that issue and provided 
recommendations and guidance was from the Committee of the 
Tactical Emergency Casualty Care and from the military.
    So this program and this course that was developed and then 
put out to the field, we have trained nearly 3,000 commissioned 
personnel since 2015. We have had 130 interventions with this 
application and saving 60 lives, including the lives of 3 State 
troopers.
    Of the 40 life-saving awards presented over the last 2 
years, 14 are troopers using the Tactical Emergency Casualty 
Care application. We have trained numerous agencies throughout 
the State, but I do not have any numbers on their saves.
    Mr. Crenshaw. That is OK. I think this is enormously 
important, and it come to my attention, you know, just over a 
year ago, that not all law enforcement around the country even 
carry a tourniquet with them. This is mind-blowing to somebody 
from the SEAL teams and from the military or from the Marine 
Corps. It is imperative that we get this down to the lowest 
level. So, in Texas, Texas did this on its own.
    FLETC seems to me like a very good partner on something 
like this. Perhaps now that you all know each other, you know, 
we could take Texas' model and offer that to other States to 
implement as well.
    Losing somebody to a gunshot wound unnecessarily is pretty 
heartbreaking, you know. With the technology and training we 
have these days, that should never happen. So I appreciate 
FLETC--obviously having the right training at FLETC. But 
getting this down to the local level is enormously important, 
and not just for police officers but security guards, I mean, 
the people who might be there first. This takes--you know, you 
might only have seconds.
    Mr. Davis, do you want to speak briefly about the physical 
fitness testing and assessment programs and why that is so 
important for law enforcement? You had mentioned to me some 
very concerning numbers about life expectancy for law 
enforcement officers.
    Captain Davis. Yes, sir. So according to the International 
Association of Chiefs of Police, CALEA, Centers for Disease 
Control, various opinions and surveys, what we see going across 
the United States at the present moment in time is an 
unfortunate reality. OK?
    So we have situations where we have law enforcement as 
being recorded as the third most obese profession in the United 
States. That is a concern.
    Second, according to Dr. Jonathan Sheinberg, who sits on 
the DOJ task force dealing with officer safety, wellness, and 
health--he is a cardiologist/police officer, so he gets the 
best of both worlds--we have an unfortunate report that 
currently the mortality rate for law enforcement officers in 
this country is 57 years of age.
    According to Centers for Disease Control, the average 
mortality rate for the male in this country is 79 and women are 
82. So the question is, do we have a problem with a mortality 
rate of 57 years of age for law enforcement? The answer is yes.
    Mr. Crenshaw. We do. You get that training from FLETC----
    Captain Davis. Yes, sir. The foundation and inspiration----
    Mr. Crenshaw [continuing]. And bring it back to the lower 
level.
    Captain Davis. Yes, sir, the inspiration of the foundation 
for the Physical Fitness Testing and Assessment Model that we 
developed at Texas did come from the Law Enforcement Physical 
Fitness Training Coordinator Program.
    Mr. Crenshaw. OK.
    Captain Davis. It was an inspiration to me to launch a 
program dealing with VO2 signs and applying a roller, removing 
impact from a testing model to keep our people safe during 
testing. That was one of major concerns of all law enforcement 
agencies across----
    Mr. Crenshaw. I am sorry. I would like to move on to this 
next one.
    What additional--one last question. What additional 
programs would you like to see FLETC offer? What demand do you 
see from the State and local level that you would like to see 
at FLETC and be able to send your officers to?
    Captain Davis. Absolutely. As mentioned in my statement, 
the investment and the continued tradition of excellence, 
developing medical and tactical legal research to back the 
sixth pillar of the 21st Century Recommendations of officer 
safety, health, and wellness and de-escalation directives.
    Mr. Crenshaw. De-escalation. Thank you.
    Madam Chairwoman.
    Ms. Torres Small. Since we are on the second round, I am 
going to go to our new arrival.
    Mr. Higgins. Please.
    Ms. Torres Small. So the Chair will recognize the 
Congresswoman from California, Ms. Barragan.
    Ms. Barragan. Thank you.
    Gentlemen, I apologize for being late. I am running from a 
markup at my other committee hearing.
    These questions are for, I believe, Mr. Kelly.
    Mr. Kelly, are you familiar with the Adelanto facility in 
California?
    Mr. Kelly. Yes, I am. We issued a report on that.
    Ms. Barragan. Who does the training for the officers that 
are in that facility?
    Mr. Kelly. I do not believe that that is a Federal 
facility, but I will get back to you on that.
    Ms. Barragan. Well, who is responsible for that facility? 
It is an ICE facility, right?
    Mr. Kelly. It is--ICE contracts out for a lot of 
facilities. I will have to get back to you as to who actually 
owns that facility.
    Ms. Barragan. OK. But there is oversight of that facility, 
and that oversight is done by the inspector general?
    Mr. Kelly. The oversight of the facilities is supposed to 
be done by ICE. We provide oversight to make sure that ICE and 
the components are actually doing their job. On the Adelanto 
facility, we said that they were not doing a very good job 
there and it was--they had a lot of problems there.
    Ms. Barragan. I guess what I am trying to get at is, who is 
accountable? Who is responsible for when something goes wrong 
there?
    Mr. Kelly. Ultimately, if it is an ICE facility, ICE-
contracted or ICE-owned facility, ultimately, ICE is 
responsible for making sure that they comply with standards. We 
have reported that ICE does not do a very good job in ensuring 
that contractors comply with those standards.
    Ms. Barragan. So what can be done when the contractors are 
not complying with the standards?
    Mr. Kelly. They can be penalized, and we have reported that 
ICE has not been penalizing the contractors for not complying 
with standards.
    Ms. Barragan. Do we set up training requirements for these 
private contractors on what they should be trained on?
    Mr. Kelly. I will have to get back to you on that, but I do 
not think that ICE--ICE gives them the standards that they are 
supposed to comply with. Now, whether or not they are complying 
with it, ICE has inspectors, but as I mentioned before, we have 
determined or we have reported that ICE does not do a very good 
job in ensuring that people comply with the standards. So it is 
not surprising when we go out and do unannounced inspections, 
we find a lot of deficiencies.
    Ms. Barragan. Right. Well, just this week, this report, 
this testimony came out from a gentleman named Darwin Altunez 
Ramos. Mr. Ramos happens to be--here is a photo of him--happens 
to be a gentleman that I slept on the concrete outside on the 
floor at the Otay Mesa port of entry until officers there 
processed him as he presented himself for asylum. We were on a 
patch of U.S. soil.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Barragan. His testimony now--and he is there--are the 
conditions there are terrible. He is being targeted. He is 
being verbally abused. He is being--lots of things are 
happening. People are screaming in his face. They are calling 
him terrible names. This is something I saw first-hand actually 
when I was at that port of entry where you had officers, CBP 
officers, talking bad about migrants right in front of them, 
saying basically things like they were criminals. The reports 
that we are hearing from people at that facility is they are 
not treated like humans.
    I know that you have done a report on this in May 2018 that 
outlines just some of the horrible stuff happening there, of 
people not getting access to medical care, of the nooses that 
are there and the contractors there thinking it is not really a 
big deal to address it.
    I am interested, really, in finding out who is responsible. 
I mean, we are here talking about training and making sure our 
officers are trained properly. We should not be able to say 
that, oh, because it is a private contractor, we are not 
responsible for the training of those contractors and making 
sure that they are treating people with dignity and humanely.
    Can anybody on this panel tell me? Is there any training at 
all of any of our officers on making sure that people, 
migrants, are treated humanely, like people instead of like 
animals, which is what we are seeing happening in certain 
instances at the Southern Border? Can anybody tell me if there 
is any kind of training for dignity and treating people like 
humans?
    Mr. Walters. I will offer to address part of that, at 
least. You know, our basic officers for the training that the 
Federal Law Enforcement Training Center provides that we own, 
we have a pretty strong core in there of ethics, courtesy, 
appropriate behavior, standards of conduct, human rights, 
cross-cultural communications.
    For all the organizations, I know that DHS, my home 
organization, has a code of conduct. I know that CBP, my old 
organization, has a code of conduct. I know that ICE has a code 
of conduct. In each one of those codes of conduct, they 
emphasize acting properly, acting as a responsible law 
enforcement officer caring for the people.
    So I know that is embedded in our training in many 
different ways, but to the direct answer to your question, do 
we have something directly on that specific subject that is 
offered as an 8-hour block, no, we don't. But it is embedded in 
our training.
    Ms. Barragan. Thank you.
    I yield back.
    Ms. Torres Small. Thank you.
    The Chair recognizes for 5 minutes the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Inspector General Kelly, the Federal Law 
Enforcement Training Centers have to handle training 15,000 
additional American men and women, the training surges, we 
agree to refer to it as. To me, it is cause for the training 
cadre at the training level, at the facilities, they need to be 
allowed to make command decisions and adjustments. They have to 
have the flexibility that they need to get the job done, to get 
the training curriculum completed, and to graduate their 
cadets.
    One of the OIG reports apparently stopped the use of a 
warehouse as a training venue, referred to a damaged warehouse 
that posed unacceptable risks to trainees and instructors. What 
kind of damage?
    Mr. Kelly. Well, I believe you are talking about the 
warehouse that was at Artesia?
    Mr. Higgins. Yes, sir. In Artesia.
    Mr. Kelly. In which an automobile on a track close by to 
that, roughly 35 yards away from the track, went out of control 
and crashed into the building.
    Mr. Higgins. How large is this warehouse?
    Mr. Kelly. It is a fairly good-sized--I can't give you the 
actual square footage of the warehouse, but it was a good-sized 
warehouse.
    Mr. Higgins. So in what way--there was some damage to the 
exterior, to the steel? Was the structural integrity of the 
building in question?
    Mr. Kelly. It appeared to be structural damage. It did hit 
a beam that was supporting the roof. One of our recommendations 
was to go out and get an engineering study to find out whether 
or not that facility--what was the structural damage associated 
with it.
    Mr. Higgins. What sort of vehicle crashed into this large 
warehouse?
    Mr. Kelly. I believe it was a police cruiser.
    Mr. Higgins. A what?
    Mr. Kelly. A police cruiser.
    Mr. Higgins. A patrol unit?
    Mr. Kelly. Yes.
    Mr. Higgins. A regular unit?
    Mr. Kelly. Yes.
    Mr. Higgins. It wasn't an bulldozer.
    Mr. Kelly. No. No. It was an automobile that someone----
    Mr. Higgins. So the training cadre had made decisions to 
use this warehouse for training, for simulation training, or 
what?
    Mr. Kelly. Well, it is a little bit more complicated than 
that. The accident----
    Mr. Higgins. Were there classrooms in there, or were they--
--
    Mr. Kelly. No. It was a warehouse.
    Mr. Higgins. Was this a large vacant warehouse?
    Mr. Kelly. It was a large vacant warehouse. The accident 
occurred, I believe, in 2009, and they didn't start using it 
for a training facility until 2016.
    Mr. Higgins. Exactly. This is the sort-of--this is to the 
heart of my question here, good sir. Respectfully I ask, of 
course, we don't want cadets or our training cadre exposed to 
unnecessary risk. There is already risk associated with a 4-
month training block of instruction. It is incredibly 
challenging and difficult, and there are inherent risks and 
dangers.
    But it seems to me that if we are going to get 15,000 men 
and women trained in this training surge, the training cadre 
needs to be able to make simple decisions. If you have a 
10,000-square foot warehouse, you know, stay away from the part 
that got hit by a car. In the mean time, we are conducting our 
training.
    So do you envision this type of restriction from the OIG as 
impacting FLETC's ability to train these 15,000 men and women, 
and should they not have more flexibility at the training cadre 
command level to make common-sense decisions? I will leave you 
to answer that, good sir.
    Mr. Kelly. FLETC has been very responsive to our 
recommendations. All of the recommendations that we have made, 
they have either actually fully implemented are or in the 
process of implementing them. So I think our relationship----
    Mr. Higgins. Let me ask Mr. Walters--not to cut you off, 
and thank you for clarifying that, Inspector General.
    Mr. Walters, wouldn't the training cadre on the ground be 
able to--you are talking about complying with OIG 
recommendations. Of course, you pretty much have to if it 
involves some sort of a safety assessment, but wouldn't your 
training cadre on the ground have made that decision before 
they started using this facility to train scenarios in?
    Mr. Walters. We could have done better in deciding to use 
that warehouse. What we didn't realize is that it had some 
structural damage. The damage that was apparent was not 
structural in nature, as far as we could tell, so it sat unused 
from 2009 until Border Patrol requested to use it.
    Mr. Higgins. OK. Well, just in my remaining few seconds, 
yes or no, does your training cadre have the flexibility it 
needs to get the job done?
    Mr. Walters. Yes. I think we do, sir.
    Mr. Higgins. Thank you, sir.
    Madam Chairwoman, thank you. My time has expired.
    Ms. Torres Small. Thank you, Mr. Higgins.
    If folks are interested, we will do one more round. OK. 
Appreciate you. Thank you. I won't use the whole 5 minutes, but 
I will recognize myself for questions.
    Mr. Walters, the last thing you said was really 
enlightening to me. You said sometimes the partners consult 
about decisions made on instructors, and sometimes they aren't 
able to. Is there anything that we can do in Congress to 
support this necessary consultation with FLETC on instructors?
    Mr. Walters. I believe there are some things that can be 
done. I think the organizations themselves agree that providing 
instructors the proper way and the proper amount of time and 
having them fully prepared is the right thing to do. Our 
Memorandums of Agreement we have with all the different 
organizations also agree.
    What would be helpful is for all of the--not just to pick 
on the DHS components, but if you are going to train at the 
Federal Law Enforcement Training Center, it would be beneficial 
to have all of your programs and your academy accredited with 
an independent accrediting body.
    We do that at the Federal Law Enforcement Training Center. 
We don't certify ourselves. We work through the Federal Law 
Enforcement Training Accreditation Board, which is independent. 
We house them, and we provide some support as we would other 
participating organizations, but they are independent. That 
helps lend discipline to the process.
    What it really does is focus the organizations on honoring 
their own training policies. It makes their decisions to do or 
not to do accountable. Who made the decision? When did they 
make it? Why did they make it? It doesn't constrain them in any 
way, but it makes them accountable, and I think that is a good 
thing.
    Ms. Torres Small. Thank you, Mr. Walters.
    Mr. Davis, I saw you nodding your head in agreement. Would 
you be willing to comment on that?
    Captain Davis. That is one of the reasons why we seek out 
training from FLETC is because of the accreditation. It is so 
critical because you don't see it across the United States on 
this level. So, to have the Federal Law Enforcement Training 
Accreditation there to help with influencing policy and making 
sound decisions regarding policy and language, we want to seek 
consistency and continuity across the board so we are 
functionally operational.
    Ms. Torres Small. Thank you, Mr. Davis.
    Mr. Kelly, are there any partners with FLETC that you have 
currently identified as models for the way they utilize 
instructors and specifically instructor time?
    Mr. Kelly. I think the report would indicate that CBP does 
a pretty good job, and ICE ERO does a better job between the 
two ICE components, and so I think that would be the better 
one. I think we still have some significant problems with his, 
who cycles their instructors every 4 months. That does not seem 
to be either cost-effective or provide good training.
    Ms. Torres Small. Thank you.
    I will yield the rest of my time and recognize Mr. 
Crenshaw, the gentleman from Texas.
    Mr. Crenshaw. Thank you, Madam Chairwoman.
    I want to go to you, Mr. Walters. With so many partners and 
so many local and State law enforcement agencies that would 
want to utilize FLETC training, how do you prioritize which 
agencies will receive training at any given time? How long is 
the wait list?
    Mr. Walters. We have a wait list at the far end for lower-
priority training, but our highest priority is always basic 
training. We have some sub-units of that.
    The set of basic training programs I run, not surprisingly, 
I prioritize those programs, not because I own them but because 
all our participating organizations, many of them use those as 
a core for their follow-on schools. Next would be the agency 
basic programs, and after that, we do center advanced training 
programs.
    Mr. Crenshaw. What I am trying to get at is so, if the 
Department of Public Safety in Texas is trying to get into one 
of your courses, how easy is it for them?
    Maybe, Mr. Davis, you can answer that really quick, and 
then I will come back. Get an idea of what the demand is out 
there, and is it even close to possible to fill it?
    Captain Davis. During the last 14 years, when the courses 
have come up, we put in for it, and we have been very 
successful in getting it, so we haven't had any--too much 
delay.
    Mr. Crenshaw. OK.
    Mr. Walters. So, if I can add on to that. We have 800,000 
State and locals out there that could benefit from some or part 
of our training. What we are trying to do is maximize our 
access--their access to our Federal programs. We develop the 
training for the Feds, and we make them available to everyone 
else in the United States if we can.
    So we are going to a new model of train the trainers to 
expand our outreach to them. I think it is a great model for 
Texas and every other place, expand their access to that.
    Mr. Crenshaw. I want to move on to human trafficking 
training. I know FLETC has started to develop this kind of 
training and encouraging officers or training officers with the 
ability to note potential human trafficking victims and prevent 
that. Can you talk a little bit about that, and then, Mr. 
Davis, after Mr. Walters, will you talk about how Texas does it 
as well?
    Mr. Walters. So human trafficking. It has a cross-
transnational component, but that is not the only component. We 
deal with it in two ways. We prepare our law enforcement 
officers to do their law enforcement job when they recognize 
human trafficking, but the other part of that is for the 
general public, especially other public officials, some law 
enforcement and others that just work in the community to 
recognize the signs that human trafficking is taking place and 
who to call. It is fairly simple, but it is an effective 
program. We get a lot of response on it. It is in demand and 
properly so.
    Mr. Crenshaw. We are talking a 2-day program, I believe? It 
is not very long.
    Mr. Walters. We have a program that we are running next 
week, a pilot program in our Charleston, South Carolina, 
facility, and we will pilot that again at a local site, and 
then we will expand it out Nation-wide.
    Mr. Crenshaw. Mr. Davis, would you like to expand on that, 
on how Texas DPS trains its officers to recognize this? I mean, 
I was on the border for a day not just too long ago: 14 kids 
were with adults that were not their parents. So it is very 
obvious that our asylum process is abused and used, and it is 
well-known that a child can be taken as basically your ticket 
across the border. How do we figure out who is who?
    Captain Davis. As far as the Texas Department of Public 
Safety, that particular concept is one of high priority in our 
agency. That training begins at the trooper training level, and 
it consistently is reinforced once they are out of the academy, 
well into the field in their in-service programs. So that is 
why we are very effective at doing that operation, but it is 
one of our major priorities.
    Mr. Crenshaw. OK. Thank you. I just want to emphasize again 
how important that part is. Houston, where my district is, is a 
hub for human trafficking. We are not proud of that fact, and 
so we are thankful to law enforcement for doing everything it 
can to train officers to be able to observe and detect and 
deter and prevent it, so thank you.
    I yield.
    Ms. Torres Small. Thank you.
    The Chair recognizes for 5 minutes the gentlewoman from 
California, Ms. Barragan.
    Ms. Barragan. So I want to follow up on the initial line of 
questioning. I think in the first line, we established there is 
no training for officers on treating people with dignity and 
respect and as humans, and it is kind-of sad that we even have 
to have this conversation, that there should be that training. 
But after the human rights violations we see happening at some 
of these facilities, I think it is critical.
    I am curious if anybody on the panel, just by a yes or no 
question, are officers trained, and specifically I want to know 
about CBP officers and ICE officers. Are either of those 
officers trained that migrants coming over applying for asylum 
are to be treated as criminals, or are they--you know, 
criminals are generally treated to be punished. What I am 
trying to get at is, are they trained to punish, or are they 
trained in a different manner, say, because they are only in 
civil detention just to be treated like they are detainees and 
not criminals? Anybody on the panel? It doesn't have to be a 
long answer. Are they trained to punish?
    Mr. Walters. They are definitely not trained to punish. 
Now, I can talk about the Federal Law Enforcement Training 
Center's basic training programs.
    Ms. Barragan. Well, I am interested in just ICE and CBP 
because I have some more questions I want to get to.
    Mr. Walters. Well, they would be the proper place for that, 
to ask that question about the specifics because they have a 
huge responsibility and authority to develop that kind of 
training and develop the culture for their organizations.
    Ms. Barragan. Mr. Kelly, would you say that the detainees 
at Adelanto are people that should be punished?
    Mr. Kelly. The answer to that is no. Most of them are there 
civilly, so they are not supposed to be punished.
    Ms. Barragan. OK. Then what I want to do is I want to read 
some scenarios, and I want to know where in the training that 
might be addressed so that this doesn't happen, and so where in 
the training this might happen.
    So let's say you have a detainee in ICE, and they are 
placed into disciplinary segregation, but there is no 
disciplinary hearing panel, which is actually what is required 
before placing a detainee in segregation. Now, when that 
doesn't happen, the detainee's right to due process is 
violated.
    Where in the training that is provided to officers do they 
get on making sure that they get that hearing before violating 
their due process rights? Anybody know? Mr. Kelly?
    Mr. Kelly. We have reported that as being a significant 
problem.
    Ms. Barragan. Right. What I am asking is what part of the 
training does an officer get? Where is that in the training so 
that they are told of the rules so they are not doing this? I 
know it is happening, and your own report says it is happening, 
which is a huge concern for me. So what I am trying to figure 
out, where in the training does that happen that an officer 
knows hey, by the way, this is a no-no. You can't do this.
    Mr. Kelly. That answer probably should be at either CBP or 
ICE, the entity that is actually performing it.
    Ms. Barragan. But is there any training--are you aware of 
any training that is being provided to any of our officers on 
that?
    Mr. Kelly. I am not aware, but I don't think I would 
ordinarily be aware of exactly what specific type of training 
they receive.
    Ms. Barragan. OK. So here is another scenario. We have a 
disabled detainee who is basically being placed in disciplinary 
segregation, and this disabled detainee is in a wheelchair and 
is taken into his cell, and he is left there for 9 days. The 
detainee never leaves his wheelchair to sleep in a bed or brush 
his teeth. Medical staff simply walks by, and they rubber stamp 
that they have evaluated him as required by the ICE standards. 
Obviously, this is wrong, and this is happening as is indicated 
in the inspector general's report.
    Anybody know in the training where officers are being told 
that this also is wrong and shouldn't be happening? Nobody. OK.
    Well, let's go to this other scenario. Detainees are in 
disciplinary segregation, and they are improperly handcuffed 
and shackled. According to the inspector general's report, that 
is not supposed to be happening either. Does anybody know in 
the training of officers where they are told that that is not 
supposed to be happening? OK. Nobody. Nobody knows.
    The last thing I want to just end with real quickly is 
there have been reports, video evidence reports, of ICE 
officers stopping people in their cars and asking for papers, 
asking for a number of things. I am aware of the rules that, 
within 100 miles of a border, you are allowed to do that. But 
some of these videos are indicating that officers, that they do 
not really have the right to harass and continue to detain 
people and asking for papers.
    Does anybody know what part of the training that Federal 
officers received, either ICE or CBP, on when they can ask for 
papers and continue to harass and lie to people into making 
them try to provide something?
    Mr. Walters. Let me try and address that. From my CBP 
experience, I spent a lot of time there, I know that the use 
of--the interaction with citizenry and the rules behind that, 
what the immigration laws allow, the court decisions on that 
are taught very robustly, I guess would be a phrase, in the 
basic training program for CBP for sure. I assume ICE as well, 
but that is just an assumption on my part. My experience at 
CBP, when I left in 2014, they were teaching it, and I assume 
that they still are.
    Ms. Torres Small. I apologize. The gentlewoman's time has 
expired.
    Ms. Barragan. Great. Thank you.
    Ms. Torres Small. I thank the witness for their valuable 
testimony and the Members for their questions. The Members of 
the subcommittee may have additional questions for the 
witnesses, and we ask that you respond expeditiously in writing 
to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:19 a.m., the subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

  Questions From Chairwoman Xochitl Torres Small for Thomas J. Walters
    Question 1a. According to a November 2018 Office of Inspector 
General (OIG) report, the Federal Law Enforcement Training Ceneters 
(FLETC) identified at least 8 facilities that have exceeded their 
capacity.
    Is that number still accurate? Are there any additional facilities 
that face capacity issues?
    Answer. The number is still accurate, and there are no additional 
facilities facing capacity issues.
    Question 1b. How frequently are partners competing for the same 
facility at the same time?
    Answer. When FLETC plans its schedule on a quarterly basis, between 
10 percent and 50 percent of scheduled classes have one or more 
facilities conflicts. FLETC resolves these by using agencies' second 
and third choice venues. In the very rare instances when a third choice 
is not available, FLETC will reschedule training to occur on a weekend 
when venues are available.
    Question 1c. When that occurs, how does FLETC decide which partner 
gets to use the desired facility and which has to use a back-up site?
    Answer. FLETC has a directive that prescribes an order of priority 
for scheduling facilities based on program categories, with basic 
programs receiving first priority. When FLETC develops training 
programs, subject-matter experts and agency representatives identify 
first-, second-, and third-tier venues that will enable programs to run 
effectively. When two partners request the same venue, FLETC works with 
the agencies within the parameters of program prioritization 
established by directive to identify alternatives that will effectively 
meet all training needs. In rare instances when participating 
organizations are vying for the exact same venue for the same program 
type, FLETC would convene all stakeholders to develop a solution that 
meets everyone's needs, including potentially adjusting training 
schedules to accommodate preferences where feasible.
    Question 2. What are FLETC's policies and processes for ensuring 
facilities are well-maintained so that instruction takes place in a 
safe environment?
    Answer. FLETC adheres to the Federal Law Enforcement Training 
Accreditation (FLETA) standards, which include both Academy and Program 
Standards intended to ensure safe facilities. These standards address 
establishing environmental, fire, and safety guidelines for training 
facilities; providing academy and training staff with written 
information and orientation on safety rules/regulations and procedures; 
developing programs with appropriate safeguards; and providing students 
with fire and emergency procedures and safety rules and regulations for 
in-person training.
    FLETC takes the specific steps described below to ensure its 
facilities are well-maintained and that instruction occurs in a safe 
environment.
    Safe Facilities:
  <bullet> FLETC's 4 training sites (Glynco, Georgia; Charleston, South 
        Carolina; Artesia, New Mexico; and Cheltenham, Maryland) have 
        in-house Safety and Occupational Health Specialists who conduct 
        annual safety inspections of all FLETC buildings and training 
        venues. FLETC also conducts inspections as issues arise and/or 
        as reported by FLETC, Participating Organization (PO), or 
        contractor staff who occupy FLETC-owned facilities.
  <bullet> FLETC Glynco has a standing safety committee that meets on a 
        quarterly basis. Committee membership consists of FLETC 
        training and support personnel, as well as PO representatives. 
        At committee meetings, participants discuss old and new 
        business, and the committee facilitates FLETC addressing items 
        of concern. The committee encourages input from all 
        participants, and monitors and tracks trends.
    Well-Maintained Facilities:
    FLETC develops all new construction and renovation projects in 
accordance with design standards that reflect up-to-date building 
codes, the most significant of which are:
  <bullet> International Building Code, which is based on the 
        protection of public health, safety, and welfare and encourages 
        the use of new and smarter technologies;
  <bullet> Leadership in Energy and Environmental Design (LEED) Silver 
        certification, which ensures environmentally-friendly buildings 
        through the use of energy and resource efficiencies;
  <bullet> National Fire Protection Association (NFPA) Life Safety 
        Code, which prescribes building construction methods based on 
        protecting building occupants from the effects of fire and 
        related hazards;
  <bullet> Instruction 119-02-004 ``DHS Design, Engineering, and 
        Construction Guide,'' which provides a consistent approach 
        toward the execution of construction and renovation projects 
        funded by FLETC or POs involving FLETC real property; and,
  <bullet> Architectural Barriers Act Accessibility Standard (ABAAS), 
        which provides requirements for accessibility to sites, 
        facilities, building, and elements by individuals with 
        disabilities.
  <bullet> FLETC maintains its facilities through a mixture of in-house 
        and contract support, coupled with periodic, recurring 
        inspections of all facilities.
    <bullet> The FLETC Building Management Program, codified in FLETC 
            Directive/Manual 119-03, Building Management Program, 
            prescribes communication across the FLETC community to 
            ensure a safe and productive work environment exists. 
            Occupants of each FLETC building are required to designate 
            a Building Manager who provides critical insight, feedback, 
            and support for the efficient stewardship of FLETC 
            facilities and serves as the liaison with the assigned 
            maintenance mechanic.
    <bullet> FLETC uses a computerized maintenance management system 
            (CMMS) for the logging, tracking, and reporting of all 
            requests for maintenance and repairs, for both recurring 
            and non-recurring maintenance needs. FLETC also uses the 
            CMMS to monitor and document all preventative maintenance 
            tasks for building systems equipment.
    <bullet> Each FLETC training delivery point makes available a local 
            phone number for use by site personnel to report issues 
            requiring immediate attention.
    Question 3. Over the past 2 fiscal years, FLETC has made a number 
of requests for new facilities as part of its budget requests, many of 
which have gone unfulfilled. If you could identify your top needs from 
Congress, what would they be?
    Answer. The President's 2020 budget includes the following training 
venues necessary to adequately execute required basic law enforcement 
training:
  <bullet> Dormitories: $40.94 million
  <bullet> Water and Sewer Enhancements: $2.577 million
  <bullet> Modular Classrooms/Offices: $2.832 million
    The President's 2019 budget included the following training venues 
that were not funded by Congress:
  <bullet> Processing Center: $11.361 million
  <bullet> Non-lethal Training Ammunition House: $15.771 million
  <bullet> Transportation Checkpoint: $3.265 million
  <bullet> Skid Ranges: $4.237 million.
    Questions From Chairman Bennie G. Thompson for Thomas J. Walters
    Question 1. FLETC's Strategic Plan for fiscal years 2016-18 
reflected the Department of Homeland Security's priorities set forth in 
the 2014 Quadrennial Homeland Security Review (QHSR). Recently, FLETC 
released its updated Strategic Plan, but without the benefit of a 
current QHSR since the one due to Congress in December 2017 is more 
than 16 months overdue. In absence of the QHSR, what input did FLETC 
receive from the Department when developing its Strategic Plan for 
fiscal years 2018-2022?
    Answer. As it developed its fiscal year 2016-2022 Strategic Plan, 
FLETC participated on the DHS Strategy and Policy Executive Steering 
Committee, which ensured FLETC was aware of Departmental priorities and 
was engaged in the Department's strategic planning process. 
Additionally, FLETC communicated with Departmental leadership about its 
strategic planning efforts, and sought and received approval for its 
revised mission, vision, and values statements. To be specific, on 
April 9, 2018, then-Under Secretary for Management Claire Grady 
approved FLETC's action memo outlining its revised mission, vision, and 
values statements. On June 6, 2018, then-Secretary Kirstjen Nielsen 
approved FLETC's action memo outlining its revised mission, vision, and 
values statements. Subsequently, FLETC collaborated with the Department 
in its strategic planning efforts through 2 meetings with DHS 
operational component leaders. FLETC coordinated with the under 
secretary for management to hold these meetings in December 2018 and 
March 2019 to discuss future training requirements. Also in March 2019, 
FLETC submitted its 2018-2022 Strategic Plan for review to all 
operational components and headquarters offices. FLETC received and 
incorporated feedback before finalizing its plan.
    Question 2a. I have been encouraged to see that the Department of 
Homeland Security has agreed to have the Office of Chief Human Capital 
Officer work with components to develop and implement standards and 
processes for recruiting and retaining qualified instructors in a 
consistent manner.
    Has FLETC been consulted in the development of these new policies?
    Answer. Yes, the Office of the Chief Human Capital Officer is 
consulting with FLETC in the development of these new policies.
    Question 2b. What specific changes does the Department plan on 
implementing?
    Answer. The changes the Department plans on implementing are in the 
development phase, with an estimated completion date of September 30, 
2019.
    Question 3a. In a FLETC publication released last year you noted 
that you received a call from DHS Headquarters about plans to pull all 
trainees out of the basic training academy and send them to the border 
before they had completed their training.
    Who made this request?
    Question 3b. Why did you advise against pulling out trainees before 
they had completed their training? What are the negative results of 
pulling trainees out of the Academy and placing them in the field 
before completing their training?
    Question 3c. Since that article was published, have there been any 
other plans (successfully implemented or otherwise) to pull trainees 
out of the Academy prematurely and put them in the field?
    Answer. The publication referenced was an article Director Walters 
wrote, which was included in the 2018 Spring/Summer edition of the 
FLETC Journal. Director Walters was providing an example of how he 
handled a challenging leadership situation earlier in his career. To be 
specific, he encountered this request in 2001 while serving as chief of 
the U.S. Border Patrol Academy, and was referencing a lesson learned 
from his time serving as associate chief of the U.S. Border Patrol when 
the Olympic Games bombing occurred in Atlanta in 1996.
        Questions From Chairwoman Torres Small for John V. Kelly
    Question 1a. According to a November 2018 Office of Inspector 
General (OIG) report, the Federal Law Enforcement Training Ceneters 
(FLETC) identified at least 8 facilities that have exceeded their 
capacity.
    Is that number still accurate? Are there any additional facilities 
that face capacity issues?
    Answer. Response was not received at the time of publication.
    Question 1b. How frequently are partners competing for the same 
facility at the same time?
    Answer. Response was not received at the time of publication.
    Question 1c. When that occurs, how does FLETC decide which partner 
gets to use the desired facility and which has to use a back-up site?
    Answer. Response was not received at the time of publication.
    Question 2. With respect to addressing the problem of facilities 
that are over capacity, what recommendations do you have for FLETC?
    Answer. Response was not received at the time of publication.
    Question 3. Do you have confidence in FLETC's ability to maintain 
its infrastructure in the event of a hiring surge? What action does 
FLETC need to take to better ensure that instruction takes place in a 
safe environment?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
